<html>
<title> - IS ACADEMIC FREEDOM THREATENED BY CHINA'S INFLUENCE ON U.S. UNIVERSITIES?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                 IS ACADEMIC FREEDOM THREATENED BY CHINA'S 
                       INFLUENCE ON U.S. UNIVERSITIES?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2015

                               __________

                           Serial No. 114-87

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-248PDF                     WASHINGTON : 2015                  
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,                    AMI BERA, California
    Tennessee<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jeffrey S. Lehman, vice chancellor, New York University-
  Shanghai.......................................................    10
Ms. Susan V. Lawrence, Specialist in Asian Affairs, Congressional 
  Research Service...............................................    23
Mr. Robert Daly, director, Kissinger Institute on China and the 
  U.S., Woodrow Wilson International Center for Scholars.........    32
Mirta M. Martin, Ph.D., president, Fort Hays State University....    43
Ms. Yaxue Cao, founder and editor, China Change..................    61

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jeffrey S. Lehman: Prepared statement........................    14
Ms. Susan V. Lawrence: Prepared statement........................    26
Mr. Robert Daly: Prepared statement..............................    36
Mirta M. Martin, Ph.D.: Prepared statement.......................    47
Ms. Yaxue Cao: Prepared statement................................    64

                                APPENDIX

Hearing notice...................................................    98
Hearing minutes..................................................    99
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Letter submitted for the record.......   100
Mr. Jeffrey S. Lehman: Appendices to testimony...................   102
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of Dr. Dawood Farahi..................   106


      IS ACADEMIC FREEDOM THREATENED BY CHINA'S INFLUENCE ON U.S. 
                             UNIVERSITIES?

                              ----------                              


                        THURSDAY, JUNE 25, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    And I want to welcome all of our very distinguished 
panelists and guests to this hearing this afternoon.
    And I would like to begin with an opening statement, and 
then I will yield to my two distinguished colleagues if they 
would like to make any opening statements.
    This hearing is the second in a series probing the question 
of whether maintaining access to China's lucrative education 
market undermines the very values that make American 
universities great, including academic freedom.
    This hearing is timely for three reasons: The growing 
number of satellite or branch campuses started by the U.S. 
universities in China; the record numbers of Chinese students, 
275,000 estimated, enrolling in U.S. universities and colleges 
in China in each year, bringing with them nearly $10 million a 
year in tuition and other spending; and the recent efforts by 
the Communist Party of China to regain ideological control over 
universities and academic research.
    Official Chinese Government decrees prohibit teaching and 
research in seven areas, the so-called seven taboos or seven 
silences, including universal values, press freedom, civil 
society, citizen rights, criticism of the party's past neo-
liberal economics, and the independence of the judiciary. All 
of these so-called seven taboos are criticized as Western 
values, which begs a very significant and important question: 
Are U.S. colleges and universities compromising their images as 
bastions of free inquiry and academic freedom in exchange for 
China's education dollars?
    Some may defend concessions made as the cost of doing 
business in an authoritarian country or dictatorship, such as 
in China. Maybe a university decides that it won't offer a 
class on human rights in China. Maybe they won't invite a 
prominent dissident, a fellow, or visiting lecturer. Maybe they 
won't protest when a professor is denied a visa because of his 
or her work that is critical of a dictatorship. Maybe such 
compromises are rationalized as necessary to not offend a major 
donor or for the greater good of maintaining access.
    If U.S. universities are only offering Chinese students and 
faculty a different name on their diploma or paycheck, is it 
worth the cost and the compromises and the concessions?
    Perry Link, the eminent China scholar, argued during our 
last hearing in this room just a few months ago that the slow 
drip of self-censorship is the most pernicious threat to 
academic freedom, and it undermines both the recognized brands 
of our major universities as well as their credibility.
    Self-censorship may be the reason why NYU terminated the 
fellowship of a world-class human rights activist and hero, 
Chen Guangcheng. As NYU faculty said in their letter to the 
board of trustees, the circumstances surrounding the launch of 
an NYU satellite campus in Shanghai and the ending of Chen's 
residence created a ``public perception, accurate or otherwise, 
that NYU made commitments in order to operate in China.'' 
Again, begs another question: Did NYU make any commitment or in 
any way fashion their response to Chen's staying at NYU?
    Let the record show that we had invited NYU's president or 
faculty some 16 times to testify before this subcommittee 
without success. However, we are very, very pleased that 
Jeffrey Lehman, the vice chancellor of the NYU Shanghai campus, 
is indeed here with us today.
    On a personal note, I spent a considerable amount of time 
with Chen Guangcheng when he first came to the United States 
and have continued that friendship ever since. Though NYU 
offered him important sanctuary, he was, in my opinion, treated 
very rudely at times, particularly when it was clear that he 
would not isolate himself on campus. And that included times 
when I invited him to join Speaker Boehner and Nancy Pelosi at 
a joint press conference to hear from Chen Guangcheng about his 
beliefs about human rights in China, and it was a totally 
bipartisan effort, and yet that was not looked at very 
favorably.
    Though NYU offered NYU officials and others worked hard to 
cordon off access to Chen, even on the days that he came. I was 
literally moved to the side so I wouldn't be able to have 
access to him. And that is after holding four hearings, 
including two in this room, when we got him on the phone when 
he was in a hospital in Beijing and hooked him up right here at 
this microphone, and he made his appeal to the American public 
and to the press that he would like to come to the United 
States.
    Reuters and The Wall Street Journal also reported that 
there was concern that Chen was too involved with so-called 
antiabortion activists, Republicans, and others, which would 
fit me as a description because I am very pro-life.
    We may never know if NYU experienced persistent and direct 
pressure from China to oust Chen from his NYU fellowship or 
whether they sought to isolate him in order to keep Chen's 
story out of the 2012 Presidential election, as Professor Jerry 
Cohen had said in an interview at the time. Certainly, there is 
some interest here, as Hillary Clinton spent a whole chapter in 
her book detailing the events of Chen's escape and exile in the 
United States, which, when Chen Guangcheng's book came out, 
certainly was not the same story being told by both. Or maybe 
there wasn't any pressure at all, just self-censorship to keep 
in Beijing's good graces during the final stages of opening the 
NYU Shanghai campus.
    While we are not here to exclusively focus on the sad 
divorce of Chen Guangcheng and NYU, but his ousting begs the 
question: Is it possible to accept lucrative subsidies from the 
Chinese Government, or other dictatorships for that matter, and 
operate campuses on their territory and still preserve academic 
freedom and other values that make America's universities 
great?
    I am sure there are those here today who say they can and 
reference the assurance they receive from the government or any 
agreement they sign, which is often kept secret with the host 
government. The real answer appears to be much more murky.
    Foreign educational partnerships indeed are important 
endeavors for students, collaborative research, cultural 
understanding, and maybe even for the host country. The U.S. 
model of higher education is the world's best. American 
faculty, fellowships, and exchange programs are effective 
global ambassadors. We must all seek to maintain that 
integrity, and it is in the interest of the United States to do 
so, and particularly when it comes to China.
    Nevertheless, if U.S. colleges and universities are 
outsourcing academic control, faculty and student oversight, or 
curriculum to a foreign government, can they really be the 
islands of freedom in the midst of authoritarian states or 
dictatorships? Are they places where all students and faculty 
can enjoy the fundamental freedoms denied them in their own 
country?
    These questions we ask today are not abstract at all. The 
Chinese Government and the Communist Party are waging a 
persistent, intense, and escalating campaign to suppress 
dissent, purge rivals from within the party, and regain total 
ideological control over the arts, media, and universities.
    The campaign is broader and more extensive than any other 
in the past 20 years. Targets include human rights defenders, 
the press, social media and the Internet, civil rights lawyers, 
Tibetans, Uyghurs, and religious groups, the Falun Gong, NGOs, 
intellectuals and their students, and government officials, 
particularly those allied with former Chinese leader Jiang 
Zemin.
    Chinese universities have been targeted, as well. The 
recently issued Communist Party Directive Document 30 
reinforces earlier warnings to purge Western-inspired notions 
of media independence, human rights, and the criticism of Mao 
Zedong.
    In a recent speech reported by The New York Times, 
President Xi Jinping urged university leaders to ``keep a tight 
grip on . . . ideological work in higher education . . . never 
allow singing to a tune contrary to the party center, never 
allowing eating the Communist Party's food and then smashing 
the Communist Party's cooking pots''--his words.
    Will anyone at NYU or Fort Hays or Johns Hopkins or Duke, 
for that matter, be allowed to smash any Chinese Communist 
Party cooking pots? It is a serious question, because if your 
campuses are subsidized by the Chinese Government, if your 
joint educational partnerships are majority-owned by the 
Chinese Government, aren't you then eating the Communist 
Party's food and then subject to its rules just like any 
Chinese university?
    I remember almost 10 years ago when Google, Yahoo, 
Microsoft, and Cisco here testified in a hearing about 
censorship and raised their hands and gave their oath that they 
would tell the truth. The persistent response to their 
censorship and their opening up of their personally 
identifiable information to the Communist dictatorship in China 
was that they were just following Chinese law. And many great 
people, like activists, particularly in the media area, were 
imprisoned because of that complicity, because they were 
enabling it.
    I will never forget showing pictures of Tiananmen Square on 
Google which showed nothing but nice pictures--that is the 
Chinese version--and then if you went to Google, obviously the 
one that we have access to, you got millions of hits of tanks 
in the Square and young students being killed.
    There are nine U.S. educational partnerships operating in 
China. The New York University Shanghai campus opened its doors 
to students in September 2013; Duke; the University of 
California, Berkeley's School of Engineering; Kean College, 
which is located of course in my own State of New Jersey. In 
addition, there is Fort Hays State University out of Kansas, 
and there are a couple of others as well.
    I would point out to my colleagues that we have also 
asked--because this is the second in what will be a multiseries 
of hearings on this--the Government Accountability Office, and 
they have agreed, to study the agreements of both satellite 
campuses in China and the Confucius Institutes in the United 
States.
    I know some agreements are public while others are not. In 
fact, some schools made their agreements public after our last 
hearing, and we are very grateful for that. We are looking for 
complete and total transparency, and we will be asking all the 
universities and colleges to make their agreements with the 
Chinese Government public.
    We need to know if universities and colleges who are 
starting satellite programs in China can be, again, islands of 
freedom in China or in other parts of the world. We need to 
know what pressures are being placed on them to compromise and 
backstop them, knowing that the Congress and the U.S. 
Government is behind they being unfettered in their ability to 
have academic freedom.
    These are important questions. Can they be handled by the 
universities and faculties and trustees themselves, or are 
there things that the U.S. Congress and State Department and 
the White House need to be doing to protect these freedoms?
    I would like to yield to my good friend and colleague Mr. 
Sherman for any comments he might have.
    Mr. Sherman. Thank you, Mr. Chairman.
    I am not ranking member of this subcommittee. I am not even 
a member of this subcommittee. Karen Bass asked me to sit in 
and promised that I could leave at 2:45, which I will need to 
do. But I am the ranking member of the Asia Subcommittee, which 
I believe is somewhat relevant to this discussion.
    As an interloper to this subcommittee, I want to commend 
the chair and congratulate the chair and Ranking Member Bass of 
the passage of AGOA today on the House floor.
    When it comes to the greatest human rights deprivation by 
China, it is probably the enormous trade deficit they run with 
the United States. We are now engaged in this strategic and 
economic dialogue. All the bigwigs from China are here. The 
entire State Department is dedicated to them. Hundreds of pages 
of pronouncements are being generated. I can't find one that 
actually mentions that we have a $343 billion trade deficit 
with China.
    And I would point out that, while there are dozens and 
dozens of meetings, none of them are with Members of Congress, 
except for the administration has created this Potemkin village 
situation where Members of Congress are invited to participate 
only if they do not speak to anyone from China. God forbid the 
Chinese find out that there are people in the United States, 
unlike, perhaps, the administration, who care about that I 
mentioned the $343 billion trade deficit.
    Now, as to the matter at hand, we have to focus on what 
effect these educational relationships have with free speech in 
the United States and free speech in China. One other issue 
that is mentioned is, are we just cheapening the brand, 
independent of human rights and politics? Are we sending people 
over--are the Chinese learning mathematics the same way they 
would learn at the home campus here?
    That, I think, is a little outside of government's purview. 
You know, there are Buicks being sold in China, and if GM wants 
to make a Yugo and put a Buick nameplate on it and sell it to 
the Chinese, that is their business, and it will hurt their 
business. The universities have a lot tied up in the value of 
their name, and I think that will at least assure that good 
mathematics is taught by those good universities that establish 
branches in China.
    But the question is, what is the effect of this 
relationship on free speech there and free speech here? As to 
free speech there, I think that American campuses in China are 
doing a better job of honoring American values of free speech 
than any other campus in China. So our presence there does 
raise the standard, to some degree.
    Even better, from a free-speech standpoint, is when Chinese 
students come here. I guarantee that every Chinese student that 
comes here will have a chance, often, to see the cooking pots 
of the Communist Party of China smashed. It will be a good 
experience for them.
    But, as to those who are taught there, we would want to 
have the highest standard of free speech, the highest standard 
of political inquiry and tough Socratic questions. My guess is 
that we will not be able to reach American standards.
    I am also concerned about the effect this all has on free 
speech here. For example, AMC--I believe it is the second-
largest owner of movie screens in the United States--is now 
Chinese-owned. Is Richard Gere going to be in a movie about 
Tibet that is made in the future by some studio that feels that 
being on movie screens in the United States is not relevant to 
the success of the movie? I don't know. But we do know that 
such a movie will not be on Chinese screens and may have 
difficulty being on Chinese-owned screens here in the United 
States.
    More attuned to academia, I have seen Turkey try to buy 
chairs of genocide denial by endowing chairs of history, and I 
would be concerned about China endowing chairs at our 
university.
    They have a program worldwide of teaching Confucianism. I 
think China should be very proud of Confucian philosophy and 
what it has added to the world. The world could learn more 
about Confucianism. But I have fear that, if it is up to the 
Chinese Government, the version that you will learn will 
involve not breaking the cooking pots of the Chinese Communist 
Party.
    We do have to worry about the influence of money. 
Universities are not exempt from this, and there is a ton of 
money. We already see the enormous political power China gets 
from our corporations. The easiest way to make money is to make 
something for pennies in China and sell it for dollars in the 
United States. A lot of people are in that business, and they 
are a powerful force here in Washington and in the general 
political circles. And, of course, the money that our 
universities make on the Chinese enterprise, whether it be 
campuses there or students coming here, may very well affect 
what is taught, what stances are taken, who does the teaching.
    So, in conclusion, I think that having our campuses there 
helps free speech in China--though it doesn't help it as much 
as if we were able to obtain the levels of purity and free 
discourse that I would like to see--but we can do better. And a 
hearing like this will push people like you to move in the 
right direction.
    I yield back.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Chairman Rohrabacher?
    Mr. Rohrabacher. Well, first and foremost, I would like to 
thank our witnesses for coming today, and I would like to thank 
the chairman.
    Chairman Smith has been a stalwart example of what I think 
Americanism is supposed to be all about. We are supposed to 
stand for other things rather than simply corporate profit and 
making money. I am not against making money, and I am for lower 
taxes, but that is not what our Founding Fathers had in mind, 
just a place where selfish people could come and make a load of 
money and not care about any other values.
    No, instead, it is very clear that our Founding Fathers 
believed that there are certain rights that are granted by God 
to people everywhere, every individual has rights that are 
granted by God, and that as Americans we should lead the way 
and hold out basic values so that the world--we don't have to 
go to war with everybody, but at the very least we should be an 
example to the world and an inspiration to people of China and 
everywhere that would like to have their freedom, as well.
    I think the moment of truth, Mr. Chairman, came--and it was 
very sad; we were defining ourselves--in 1989 when the Chinese 
military poured into Tiananmen Square and slaughtered the 
democracy movement.
    Let me just note that when I was working with Ronald Reagan 
in the White House for 7 years we prided ourselves that we 
brought down the Soviet Union without an actual military 
confrontation between our two societies. But we did that by 
supporting and financing and bolstering the efforts of those 
people who were struggling for freedom in their own country, in 
the Soviet Union, and in those countries that the Soviet Union 
was trying to dominate.
    And, in 1989, the moment came for China to reverse its 
course from dictatorship and totalitarianism. And we let them 
down; we let ourselves down. We let ourselves down because that 
cowardice that we showed in not confronting the Chinese 
leadership was something that we are now beginning to 
experience the negative side of that decision.
    People said, well, what would you have done to back them 
up? Ronald Reagan, who I worked for for 7\1/2\ years, was not 
President at the time. Had he been President at the time, there 
would have been a phone call as soon as he got an intelligence 
report that the Chinese Army was going into Tiananmen Square, 
and that would have said, ``I am sorry, if you destroy the 
democracy movement in China, the deal is off. No open markets, 
no technology transfers, no interaction and cooperative efforts 
and social interaction. It is all off. Don't destroy the 
democracy movement.''
    George Herbert Walker Bush's telephone call, it went like 
this: There was no telephone call. And after they invaded 
Tiananmen Square and slaughtered the democracy movement, there 
was no price for the Communist Party of China to pay. And we 
continued having policies that enriched them and their control 
over their country.
    China's evolution stopped that day, and, since then, there 
has been no democratic reform in China. Although, we have been 
told, even after Tiananmen Square, if we just have this 
interaction, economically and socially and like the education 
programs we are talking about today, China will evolve into a 
better country. I have always called that the ``hug a Nazi, 
make a liberal'' theory.
    And there has been no evolution toward political freedom in 
China. But we have seen an enrichment and an empowering of an 
elite, a despotic and brutal and belligerent elite, in China. 
And it is now becoming very evident that this new China that is 
emerging poses, at least in the future, not only as a symbol of 
repression to their own people but as a belligerent threat to 
the rest of the world.
    When we don't stand up for freedom and those people 
struggling for freedom in these countries, we pay the price in 
the end. And that is what is happening.
    And we have seen all of these proposals, like we are going 
to discuss today, with interaction on education. And there have 
been lots of these various programs that, supposedly, we are 
going to make China evolve toward a freer direction. We have 
instead enriched them and empowered them in the economic arena.
    And, Mr. Chairman, I would like to submit for the record, 
at this point, a letter that I have just sent out describing 
and alerting our Government to the fact that--a major American 
company has brought this to my attention--that the Chinese have 
a predatory strategy when it comes to business. And, 
especially, they are trying to get control of the chip 
manufacturing, get control or at least have a dominating 
influence on the manufacture of computer chips.
    And, with your permission, I would like to submit for the 
record a letter that I have just sent today alerting our 
Government to that fact.
    Mr. Smith. Without objection, so ordered.
    Mr. Rohrabacher. Okay.
    Now, this was brought to my attention by an American 
company there. And I have the letter--it is to the Secretary of 
the Treasury--right here, right now. And I hope that we pay 
attention to that predatory and that negative strategy on the 
part of the Communist Party of China.
    However, what we talk about today, I think, has--where that 
is an immediate threat, this idea that we are having--and I 
disagree with my friend Mr. Sherman on this, and we usually 
agree on things. I do not believe that we need to bring Chinese 
students over here and train them in our technology schools. If 
they want to come over and take some courses in social studies, 
I think maybe that is okay.
    But I would like to hear from the panel today. I understand 
many of these students that are coming over are taking 
graduate-level classes in the sciences, number one, which puts 
them in a position to out-compete us, but puts us in jeopardy 
in terms of knowledge that we have spent billions of dollars 
trying to develop in our scientific research. That should not 
be just shared with individuals from another country if they 
are going to take it home to that country.
    So we need to start using, number one, a moral system to 
guide our decisionmaking in terms of countries like China, but 
we need to be courageous, and we need to make sure that we are 
honest with ourselves about what these policies are 
accomplishing.
    Thank you again. Thanks to the witnesses for alerting us 
what is going on with our universities, how that is impacting 
this whole dynamic at play.
    So thank you very much.
    Mr. Smith. Thank you very much, Chairman Rohrabacher.
    You underscored--and I think most members of the panel know 
this, that Mr. Rohrabacher was a speechwriter for Ronald 
Reagan. And the opposition to what George Herbert Walker Bush 
did, especially in sending Brent Scowcroft soon after Tiananmen 
Square to assure the dictatorship that they had nothing to fear 
from the United States, was one of the most infamous betrayals, 
in my opinion, that is only paralleled by, not exceeded or 
matched but paralleled by, President Clinton, when he de-linked 
human rights and trade, infamously, on a Friday afternoon, when 
the Chinese took the measure of the United States of America 
and said, profits trump human rights.
    And the Executive order, which I had lauded--held press 
conference after press conference thanking President Clinton 
for--only to find out it was a ruse. That was when they 
realized that America, at least the administration, cared only 
about making more money, at the expense of human rights 
activism. And none of the matriculation from dictatorship to 
human rights protections have occurred.
    Mark Meadows, the vice----
    Mr. Sherman. If I could----
    Mr. Smith [continuing]. Chairman of the----
    Mr. Sherman. Mr. Chairman, since the gentleman from 
California mentioned me. I was simply saying that Chinese 
students here in the United States will learn our systems of 
free expression. I never weighed that benefit to our values 
with the technological progress that they might be able to 
furnish to their government. And so you would have to weigh one 
or the other.
    And I join with the gentleman in feeling that those who 
study sociology, political science, and history in the United 
States are more of a pure plus for our values.
    Mr. Smith. Okay.
    The chair recognizes Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. I will be very, very 
brief.
    Thank each of you for your willingness to testify here 
today, for illuminating an issue that, if we do not talk about, 
becomes a bigger and bigger problem. And so your testimony is 
not only important, but it is also one that hopefully will make 
a change.
    The chairman has been a champion for human rights, freedom 
of speech and freedom of religion, unparalleled by anybody else 
here in Congress. And so it is an honor to serve with him.
    It certainly is one that we would love to know what 
legislative things or what pressure can be brought to bear for 
us to truly address that. And coming from the great State of 
North Carolina, we have a lot of institutions of higher 
learning, and I enjoy a good relationship with many of those.
    And so, Mr. Chairman, this is a fly-out day, and there are 
not many members, and so I wanted to be here to show that it is 
not only a priority for the chairman but a priority for many of 
the others of us in Congress. So thank you for being here.
    I yield back.
    Mr. Smith. Thank you, Mr. Meadows.
    Let me begin first by introducing our first distinguished 
panelist, Mr. Jeffrey Lehman, who is the first vice chancellor 
of NYU Shanghai. He has previously been chancellor and founding 
dean of the Peking University School of Transnational Law, 
president of Cornell University, dean of the University of 
Michigan Law School, a tenured professor of law and public 
policy at the University of Michigan. He has also been a 
practicing lawyer in Washington, DC, a law clerk, including 
being a law clerk to Associate Justice John Paul Stevens of the 
United States Supreme Court.
    Welcome, Mr. Lehman.
    We will then hear from Ms. Susan Lawrence, who is a 
specialist in Asian affairs at the Congressional Research 
Service, a unit of the Library of Congress that provides the 
U.S. Congress with research and analysis. She covers U.S.-China 
relations, Chinese foreign policy, Chinese domestic politics, 
Taiwan, and Mongolia. She joined CRS after a career spent 
largely in journalism in which she worked in Beijing for 11 
years and reported from Washington, DC. Immediately prior to 
joining the CRS, Ms. Lawrence managed public health advocacy 
programs in China for a Washington, DC-based NGO.
    Then we will hear from Mr. Robert Daly, who has directed 
the Kissinger Institute on China and the U.S. at the Wilson 
Center since 2013. Previously, he was at the University of 
Maryland, where he served from 2007 until 2013. And, prior to 
that, he was American director of the Johns Hopkins University-
Nanjing University Center for Chinese and American Studies for 
6 years. Mr. Daly began his work in U.S.-China relations as a 
diplomat, serving as an officer in the U.S. Embassy in Beijing. 
He has taught at Cornell, Syracuse, and has worked on TV and 
theater projects in China as a host, actor, and writer.
    We will then hear from Dr. Mirta Martin, who was appointed 
the ninth president of Fort Hays State University in 2014. Dr. 
Martin is the first female president in the 113-year history of 
Fort Hays State University and the first Hispanic president in 
the more-than-150-year history of the entire Kansas Regents 
system. Dr. Martin's career involves work in both public and 
private sectors, including special expertise in organizational 
behavior, management, institutional advancement, and workplace 
development. She has worked as a senior banking executive, held 
numerous positions in higher education, and was appointed by 
the former Governor of Virginia to serve on the Virginia 
Council on the Status of Women.
    Then we will hear from Ms. Yaxue Cao, who was the founder 
and editor of ChinaChange.org, an English language Web site 
devoted to news and commentary related to civil society, the 
rule of law, and human rights activities in China. The site 
works to help the rest of the world understand what people are 
thinking and doing to effect change in the PRC. Reports and 
translations on China Change have been cited by The New York 
Times, Time Magazine, The Guardian, Telegraph, The Washington 
Post, and The New Republic, among others, and of course has 
been included in many congressional reports. Ms. Cao grew up in 
northern China during the cultural revolution and studied 
literature in the United States.
    Mr. Lehman, if you could proceed.

 STATEMENT OF MR. JEFFREY S. LEHMAN, VICE CHANCELLOR, NEW YORK 
                      UNIVERSITY-SHANGHAI

    Mr. Lehman. Chairman Smith, other Members of Congress, I 
thank you for the opportunity to testify this afternoon.
    I have submitted detailed written testimony concerning my 
experiences in China. Because of time constraints, my oral 
testimony will only touch the key points.
    I moved to China in 2008 because the president of Peking 
University asked me to help his university create the first law 
school outside the United States to offer a true J.D. Program 
taught in the American way. I hesitated at first, but people 
like Justice Anthony Kennedy stressed my patriotic duty as an 
American to help develop the rule of law in China. And so I 
agreed to go, but I insisted that I be given absolute control 
over the school's curriculum and faculty appointments and that 
the school operate according to fundamental principles of 
academic freedom.
    Peking University has fully honored those promises. For 
example, the students there study American constitutional 
principles with the legal director of the American Civil 
Liberties Union of Southern California, and they learn about 
international courts from the chair of the American Bar 
Association Human Rights Advisory Council.
    That law school is part of a government-supported effort 
inside China to experiment with new approaches to higher 
education, and so is NYU Shanghai, which began teaching in 
2013. NYU Shanghai is a degree-granting campus of New York 
University, whose work must be accredited by both the Middle 
States Commission on Higher Education in Philadelphia and 
China's Ministry of Education in Beijing.
    The trustees of New York University award degrees to its 
graduates. Therefore, NYU agreed to participate, on the 
condition that it would operate under principles of academic 
freedom. NYU has exclusive and final responsibility over 
faculty appointments, student admissions, curricula, academic 
policies and procedures, et cetera.
    Half of NYU Shanghai's undergraduates come from China, and 
half come from the rest of the world.
    NYU Shanghai delivers an undergraduate liberal education in 
the humanities, social sciences, and natural sciences, 
promoting the skills of critical and creative thinking. All of 
our undergraduate students pursue a core curriculum in Shanghai 
for 2 years and then spend their junior year studying at other 
campuses within NYU's network, which now spans 14 cities around 
the world. And then they return to Shanghai to complete their 
degrees.
    We at NYU choose the faculty who teach our courses, and I 
am proud to say that we have recruited a remarkable group of 
stars who do not diminish the brand and who are listed in 
Appendix 1 to my written testimony.
    Financially, NYU does not profit from its activities in 
Shanghai. NYU Shanghai sits as a tub on its own bottom. So why, 
you might ask, has NYU taken this on? Two reasons stand out.
    First, NYU Shanghai advances NYU's bold redefinition of how 
a university can be structured. In the 21st century, the 
phenomena of globalization and modern information and 
communications technologies have created new challenges and new 
opportunities for humanity. In order to more effectively 
fulfill its academic mission, NYU expanded to become a global 
network of campuses and academic centers in important cities. 
Students can enter NYU through the degree-granting campuses in 
New York, Abu Dhabi, and Shanghai, and they can study away in 
11 other cities.
    Shanghai is a superb location for NYU to have established a 
degree-granting campus. China is an extraordinarily important 
and rapidly changing country, and Shanghai is New York's 
natural counterpart.
    Second, NYU Shanghai provides NYU with an essential 
opportunity to reflect deeply about what knowledge, skills, and 
virtues this generation of students requires in order to lead 
lives of satisfaction and contribution. NYU Shanghai is a place 
where NYU can experiment with new ways of developing those 
qualities.
    For example, because it is so important today that each of 
us know how to see the world through the eyes of others, NYU 
Shanghai requires every student to live with a roommate from 
another country.
    I personally teach the course that all students are 
required to take during freshman year, an intellectual history 
course which I teach using the Socratic method, in which 
students engage a set of great books by authors such Aristotle, 
Thomas Aquinas, John Locke, Adam Smith, and Friedrich Hayek. 
These are the same readings I would use if I were teaching the 
course in New York, and I included syllabi from the course as 
Appendix 2 to my written testimony.
    NYU Shanghai is a pioneering university, and we receive 
dozens of visitors to our campus every week. We would be 
delighted if any members of this subcommittee or their staffs 
would come to visit us.
    People who have not visited us in person occasionally 
suggest that NYU Shanghai should not exist. Sometimes they 
argue that American universities should stay away from any 
authoritarian country. Sometimes they say that China presents 
unique risks that render academic freedom impossible. While I 
appreciate the good motives of these individuals who speculate 
about our university from afar, I do not believe their 
conclusions are well-founded.
    First of all, the benefits of engagement are enormous. Our 
universities in America nuture skills and values that we 
believe are important to their wellbeing as individuals and to 
their societies. We are all better off if Chinese students, 
American students, and students from around the world have the 
chance to study at institutions like ours. And we would all be 
better off if countries all around the world developed 
institutions like ours that could provide those benefits to 
large numbers of their citizens.
    China is in the middle of a period of astonishing change. 
Within Chinese society, there is heated debate about what 
direction change should take over the next two decades and 
about what goals should take precedence over others. This 
debate is more likely to go well if the participants can point 
to the positive impact of schools like NYU Shanghai on Chinese 
students.
    The challenge of engagement in foreign lands is real, but 
it does not come close to offsetting those benefits. American 
universities themselves grew and prospered in a flawed country 
with serious human rights problems like slavery, but our 
universities have been durable institutions and have made 
important contributions to America's progress.
    To be sure, we have to be vigilant. A university such as 
ours cannot function if students and faculty are not free to 
ask questions and to entertain arguments that might be 
disruptive and even offensive to others. Norms of civility may 
be imposed, but they must not cut off genuine and rigorous 
inquiry. If it would become impossible to operate with academic 
freedom, NYU would close down its Shanghai campus.
    Last weekend, I told a Shanghainese friend that I would be 
testifying here today. He asked why, and I explained that some 
people who value the free exchange of ideas believe American 
universities should not be present in China. His response was 
crisp and, I believe, quite apt. He said, ``If someone is truly 
committed to the free exchange of ideas here in China, they 
should want to see more schools like NYU Shanghai, not fewer.''
    I believe in my heart that this is a noble project. It is 
not without risk, but it has the potential to benefit all of 
humanity.
    In my written testimony, I suggest that Congress consider 
creating a scholarship program to ensure that students from 
families of modest means are able to study abroad at programs 
like these. I hope that you will take that proposal seriously.
    Thank you very much.
    [The prepared statement of Mr. Lehman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Smith. Mr. Lehman, thank you very much for your 
testimony.
    I would like to now ask Ms. Lawrence if she would proceed.

    STATEMENT OF MS. SUSAN V. LAWRENCE, SPECIALIST IN ASIAN 
            AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Ms. Lawrence. Chairman Smith, Congressman Rohrabacher, 
Congressman Sherman, Congressman Meadows, thank you for this 
invitation to testify today.
    China's Ministry of Education indicates it has so far 
approved 11 U.S. universities and 1 U.S. individual to work 
with Chinese partners to run cooperative education institutions 
in China, essentially joint campuses. The Ministry has granted 
three of these institutions independent legal person status, 
which may give them some greater autonomy in their operations 
than those without such status. Those three are NYU Shanghai, 
Duke Kunshan University, and Wenzhou-Kean University.
    In addition, the Chinese Ministry of Education has approved 
a broader set of U.S. universities to work with Chinese 
partners to offer degree programs on campuses operated solely 
by Chinese partners. More than 80 U.S. universities are 
involved in partnerships to offer undergraduate degrees, and 
more than 30 U.S. universities are involved in partnerships to 
offer graduate degrees in China. In all, universities from at 
least 36 of the 50 U.S. States appear to be involved in 
approved cooperative educational institutions or programs in 
China.
    In the case of high-profile partnerships to establish new 
joint campuses, U.S. universities cite benefits in the forms of 
generous funding from the Chinese side, typically covering all 
campus construction costs and some or all operating costs; 
opportunities for new global research collaborations; and 
opportunities for students from the universities' home campuses 
to broaden their education through study abroad.
    Critics of U.S. educational collaborations in China have 
focused on several areas of concern. The most prominent relates 
to the compromises U.S. universities may be forced to make with 
regard to academic freedom--the subject of this hearing.
    Educational institutions in China, including those with 
U.S. partners, are subject to an array of Chinese laws and 
administrative regulations and guidance documents. The key 
national laws include the 1995 Education Law and the 1998 
Higher Education Law.
    Several provisions of the Higher Education Law have 
implications for academic freedom on campuses with U.S. 
partners. As I will discuss later, however, not all of these 
provisions appear to be uniformly enforced.
    Article 10 of the Higher Education Law stipulates that the 
state ``safeguards the freedom of scientific research, literary 
and artistic creations, and other cultural activities in 
institutions of higher learning according to law,'' but it also 
says that such creations and activities should abide by law, 
potentially limiting such freedoms.
    Article 39 of the law outlines the leadership role of 
Communist Party committees in state-run higher education 
institutions. It states that Communist Party committees 
``exercise unified leadership over the work of the 
institutions'' and that the committees' duties are, among other 
things, to guide ideological and political work and moral 
education on campuses and to make key personnel decisions.
    Article 51 of the law stipulates that ``the basis for the 
appointment, [or] dismissal'' of faculty and administrative 
personnel should be ideology and political performance first, 
followed by professional ethics, professional skill, and actual 
achievements.
    Similarly, Article 58 of the law stipulates that students 
should be permitted to graduate if they, first, ``are qualified 
in their ideology and moral character,'' and, secondarily, if 
they have ``completed the study of the courses required and 
have passed the examinations or got all the credits required.''
    Finally, Article 53 requires that students of institutions 
of higher learning should ``build up their physiques and the 
concepts of patriotism, collectivism, and socialism; diligently 
study Marxism, Leninism, Mao Zedong thought, and Deng Xiaoping 
theory; have sound ideology and moral character; and grasp a 
comparatively high level of scientific and cultural knowledge 
and specialized skills.''
    In 2003, China's State Council promulgated regulations 
specifically addressing collaborations with foreign partners in 
education. The regulations bar foreign partners from 
involvement in military academies, police academies, and 
political education. They also bar foreign religious 
organizations, religious institutions, religious colleges and 
universities, and so-called religious workers from involvement 
in cooperative education efforts in China, and they bar joint 
campuses from offering religious education or conducting 
religious activities.
    The regulations require that Chinese foreign educational 
collaborations ``not jeopardize China's sovereignty, security, 
and public interests''--a broad requirement that Chinese 
authorities could use to rule out academic discussion related 
to Taiwan, Tibet, Uyghurs, electoral reform in Hong Kong, the 
Falun Gong spiritual group, and other topics.
    It appears that, in practice, the Chinese Government has 
been willing to relax some of these requirements, particularly 
in the case of jointly operated institutions with independent 
legal person status and significant numbers of non-Chinese 
students, such as NYU Shanghai and Duke Kunshan University, a 
partnership among Duke University, China's Wuhan University, 
and the Government of Kunshan Municipality in China's Jiangsu 
Province.
    On the role of party committees, a 2013 article in the 
Global Times, a tabloid affiliated with the Chinese Communist 
Party's paper of record, the People's Daily, cited unnamed 
educators as saying that ``unlike Chinese universities, where 
administrative interference is considered one of the biggest 
problems with the education system, the Party committees in 
these branch campuses usually don't have a say in academic 
affairs.''
    NYU Shanghai's chancellor, Yu Lizhong, told a Hong Kong 
newspaper in 2012 that the NYU Shanghai campus would be run by 
a board of directors rather than by a Communist Party 
committee. And the NYU Shanghai Web site contains no reference 
to a party committee.
    Public reports of the Communist Party activities of NYU 
Shanghai staff relate to their participation in party bodies 
and activities not at NYU Shanghai but at NYU Shanghai's 
academic partner in the NYU Shanghai campus, East China Normal 
University. NYU Shanghai's head of human resources, for 
example, is identified on East China Normal University's Web 
site as serving concurrently as the head of the party branch of 
East China Normal University's Chinese-Foreign Cooperation 
Office.
    In contrast, one of the three campuses run jointly by Fort 
Hays State University, Henan Province-based Sias International 
University, openly lists information about its Communist Party 
Committee on its Chinese language Web site. The Web site lists 
the school's Party Secretary and Deputy Party Secretary as 
among the nine members of the school's leadership group and 
includes an organization chart showing party structures across 
the university, including party groups in the university's 
business school, law school, school of international education, 
and nine other schools.
    On the scope of permitted expression, U.S. media reports 
indicate that academic discussions on campuses in China jointly 
operated by U.S. partners do sometimes stray onto topics that 
would be taboo on other campuses in China, especially when the 
joint campuses include significant numbers of non-Chinese 
students.
    Such campuses may also have arrangements allowing their 
students unfettered access to the Internet, including to sites 
that are usually blocked in China, such as Google, Gmail, 
Facebook, Twitter, and YouTube. Such allowances may contribute 
to greater levels of overall academic freedom on such campuses 
than China normally tolerates.
    The legal guarantees underpinning such zones of free 
speech, however, remain ambiguous, raising questions about the 
long-term sustainability of such zones. Some observers have 
also noted that, because joint campuses in China tend to be 
heavily subsidized by the Chinese Government, the government 
may have significant leverage if serious disputes over academic 
freedom issues should arise.
    My fellow panelists are the experts on how their 
institutions operate within the broad legal and regulatory 
framework for institutions of higher learning in China and 
within the context of their individual partnership agreements 
and their legal person status. I look forward to learning from 
them.
    Thank you again, Chairman Smith, for the opportunity to 
testify about these issues. As an employee of the Congressional 
Research Service, I am confined to speaking about the technical 
and professional aspects of the issues under discussion in this 
hearing and to answering questions within my field of 
expertise. With that understanding, I look forward to your 
questions.
    [The prepared statement of Ms. Lawrence follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Ms. Lawrence, thank you very much for your 
testimony.
    And, without objection, your full statement and that of all 
of our distinguished witnesses will be made a part of the 
record, but I thank you for it.
    Now, Mr. Daly.

STATEMENT OF MR. ROBERT DALY, DIRECTOR, KISSINGER INSTITUTE ON 
  CHINA AND THE U.S., WOODROW WILSON INTERNATIONAL CENTER FOR 
                            SCHOLARS

    Mr. Daly. I would like to thank the chair and the other 
members of the committee for the chance to discuss a very 
important set of issues with you today.
    These are issues that I have worked on from within 
government and academia for almost 30 years. And I can tell 
you, Mr. Chairman, that all of your concerns are very well-
founded, and they require constant attention from the 
practitioners in the field who are working with China. There 
are no easy answers to this. It requires balance.
    Many of my Chinese colleagues and friends would be 
surprised to hear that there was a discussion today about 
Chinese influence on American universities, because, in their 
experience, the influence has flowed almost entirely in the 
other direction since 1854, when the first Chinese earned a 
degree from an American University.
    In fact, the very idea of the university, the modern 
university in China, was introduced from the West and primarily 
from the United States by people like John Leighton Stuart, by 
Johns Hopkins University, Oberlin, Yale, and Harvard, who 
brought the idea of the academic disciplines at university 
degrees to China in the first place. And the model for China's 
universities, their structures, their degrees, their 
governance--with the exception of the involvement of the 
Chinese Communist Party, which is pervasive, as you suggest--
this model comes primarily from the United States.
    Even today, Chinese universities are adapting American 
academic standards and models to suit China's needs, and 
Chinese scholars seek partnership with American experts and 
publication in American journals. Furthermore, young Chinese, 
as you have mentioned, now comprise 29 percent of all foreign 
students in the U.S., and approximately 2 million have pursued 
degrees here since 1979.
    On the other side of the equation, American academics 
rarely seek publication in Chinese journals, most of which are 
of low quality and many of which deal in plagiarized and faked 
research. And few American students pursue degrees from Chinese 
universities. Most Americans students who visit China--and I 
support them to do so, I believe strongly in the value of study 
abroad, but most of these students go for short-term language 
and cultural classes as part of U.S. degree programs. So 
Chinese education, as such, holds very little allure for 
Americans.
    So there can be no question that American universities have 
far greater impact on China than China has on them, just as 
there can be no question that American soft power in China 
overall--our influence on Chinese institutions, the 
aspirations, tastes, and values of the Chinese people--while 
they are not what we would like them to be, dwarf China's soft 
power here. I think that that fact has to be kept clearly in 
mind, because calls for reconsideration of our policy of 
engagement with China are growing more strident.
    Still, yes, as you note, China does exert influence on 
American universities, and that seems to be growing. And it 
comes, I believe, primarily from American colleges' and 
universities' need for and their fear of losing Chinese sources 
of financing, although it doesn't come only from there.
    We should mention, too, that while we are talking about our 
concerns about Chinese impacts on America, we should recognize 
the contribution that educational exchanges with China have 
made to the United States. This is not just a story about the 
flow of Chinese money into American universities. Even more 
beneficial has been the flow of Chinese talent and energy into 
American society.
    Many of the Chinese students who study here remain in the 
U.S. after graduation, and this new generation of immigrants, 
like their predecessors, is providing a vital infusion of 
expertise into every professional field and academic discipline 
in the United States. So we should recognize today that when we 
speak of Chinese students, this is not to demonize them; we are 
also speaking of our American neighbors, colleagues, and 
friends, and they are making a big contribution to this 
country.
    We should also note that money isn't the only thing that 
American universities want from the PRC. They also cooperate 
with China in order to fulfill their academic missions. 
American scholars, if they are to be leaders in their field, 
need access to Chinese archives, data, and research sites. They 
need to interview Chinese experts and survey Chinese 
populations. They need study-abroad opportunities for American 
students. American students now cannot be leaders in their 
field unless they have knowledge in China.
    In short, because the PRC is now central, whether we like 
it or not, to nearly every global issue, be it strategic, 
economic, technological, environmental, public health, U.S. 
universities cannot do their work, they cannot be universal, 
unless they engage with China to some degree.
    This is a new situation not only for American universities 
but for American corporations, professional institutions, 
American filmmakers, American subnational governments. They now 
have China interests, China relations, and China policies. This 
is a positive development, I believe, in the main, but it has 
its dangers.
    American universities fear ill repute in China. They fear 
being cut off from China. They fear the loss of Chinese tuition 
and fees. And this fear does give China leverage, and China 
knows it.
    We should, furthermore, be worried about how China will use 
the leverage. As the chairman has mentioned, Document 9 and 
following documents make very clear that issues like 
constitutional democracy, civil society, neoliberal economics, 
and Western ideas of journalism cannot be discussed openly in 
Chinese universities or in the Chinese media.
    Earlier this year, China's Minister of Education, Yuan 
Guiren, told a meeting of Chinese academic leaders in Beijing 
that they should reduce the number of Western-published 
textbooks in their classrooms and ``by no means allow teaching 
materials that disseminate Western values.''
    The reason for this prohibition was provided by the state-
run Global Times paper that Susan mentioned. They wrote, 
``Young students and teachers are the major groups used by 
enemy forces to penetrate and divide China.'' This is the 
attitude.
    So Yuan's statement sounds like a direct order to Chinese 
universities and a direct threat to American schools that offer 
American degrees on Chinese soil. If Western textbooks, as 
China claims, are vectors that infect young Chinese minds and 
weaken the country, are not Western faculty members and 
universities more dangerous still?
    And it is this situation, I think, that has compelled this 
subcommittee to ask the question about whether academic freedom 
can be maintained while working in and with a country such as 
the PRC.
    Despite these difficulties, however, I would argue that 
there is a way forward under the current set of circumstances. 
Now, circumstances could change, and there is definitely a time 
to pull out tent stakes and say that, yes, while the perfect 
may be the enemy of the good, China is imposing conditions on 
American universities that they cannot meet, as you mentioned. 
There could be a time to leave, but we are not there yet.
    And the reason, I think, is that, despite Xi Jinping's 
ideology campaign and despite the political character of 
Chinese universities, American universities have been able to 
find ways to interact with Chinese counterparts that do not 
threaten academic freedom.
    How can this be done? Is there room for honorable maneuver? 
I think there is because, as Susan has suggested, Xi Jinping's 
campaign and Yuan Guiren's pronouncements against American 
textbooks haven't meant much in practice yet on campuses. There 
is an atmosphere of hesitancy and fear in Chinese academic, 
cultural, and media circles that we haven't seen since the 
aftermath of the Tiananmen massacre, but, to date, there have 
been no reports of Chinese faculty being required to revise 
their reading lists or of Chinese colleges altering their 
curriculum. There has of yet been no systematic implementation 
of this very backward and draconian ideological campaign.
    Many Chinese students and scholars within China, 
furthermore, question and mock openly Yuan Guiren's call to 
restrict Western textbooks, and they do this in state-run 
media. So it is hard to keep track of what all this means in 
China.
    The president of Tiankai University wrote in the Communist 
Party flagship paper, the People's Daily, ``I have read people 
on the Internet saying that the ranks of academics must be 
cleansed, purified, and rectified. I can't agree with this. 
This was the mentality of 1957,'' the violent anti-rightist 
campaign, ``or 1966,'' which was the launch of the cultural 
revolution. Other Chinese critics point out gleefully that 
Marxism is itself a Western idea and that this campaign is, 
therefore, self-contradictory and incoherent.
    So we don't yet know where this is headed. There is space 
that is in play. And it may be that Beijing is only paying lip 
service to rectification on Chinese campuses because Beijing 
remains conflicted about the influence of the West. We still 
lead, we, the West, with the United States at the fore, lead 
the world in nearly every field of academic inquiry.
    And Xi Jinping surely knows that, despite demonizing 
Western culture, China cannot meet his reform goals unless it 
masters Western learning. His desire to make China a leader in 
the international knowledge economy and his demand that Chinese 
universities produce more innovative students are at odds with 
his calls for ideological purity. And everyone in China knows 
that his own daughter is a graduate of Harvard University, so 
it makes it hard to be too loud about these issues.
    So lastly, I would just like to make a few specific 
recommendations going forward to universities that want to work 
with China.
    One is, I would suggest that all memoranda of understanding 
with Chinese universities state clearly that any relationship 
or program can be concluded at any time by either party if its 
standards of academic freedom, academic integrity, or academic 
rigor are compromised. This clause will serve as a warning to 
both sides and a reminder of first principles, and it will 
protect American partners if Xi's ideological agenda is 
actually put into practice, at which point these programs do 
become untenable, in my view. MOUs should also, as the chair 
suggests, be made public, as any practices that fall short of 
full transparency will fuel a reasonable skepticism, the 
skepticism that American faculty, students, and other 
university stakeholders rightly have.
    American faculty, furthermore, and having worked in Hopkins 
and other universities I have seen this in practice, American 
faculty should be consulted at every stage in the planning of 
cooperative ventures with China, and faculty should vote to 
decide whether projects meet their standards of academic 
quality. This is essential because university administrators 
have to consider financial and political matters while faculty 
loyalty is to their discipline, to their departments, and to 
standards, so faculty need to lead.
    U.S. colleges and universities should not allow the Chinese 
Government or any other national government, or its agencies, 
to appoint faculty or instructors on American campuses, to 
violate U.S. fair hiring laws, or to dictate program conditions 
that violate U.S. best practices.
    And lastly, the U.S. Government, you asked what the 
government can do, we should ask regularly in our 
representations, ask Beijing to clarify its opposition to 
Western culture and its policies restricting foreign NGOs. 
China does not shy away, as you know, from accusing American 
media of bias against China. We shouldn't be reticent about 
asking why Beijing has a formal campaign demonizing our values.
    But in closing, even as we remain vigilant, I think that we 
must remember that our educational institutions, culture, and 
ideas have vastly more influence in China than China has here. 
That influence is made possible by our policy of engagement. 
Curtailing engagement would cut off our influence, which would 
serve neither American interests nor those of the Chinese 
people.
    Thank you.
    [The prepared statement of Mr. Daly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
                              ----------                              

    Mr. Smith. Mr. Daly, thank you so very much for your 
testimony.
    We are joined by Eliot Engel, who is the ranking Democrat 
on the full Foreign Affairs Committee.
    Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
for calling this hearing. Thank you for your leadership. We 
have discussed this together for many, many years. Thank you 
for your concern about academic freedom, especially when it 
comes to American institutions operating in the People's 
Republic of China.
    Let me welcome our witnesses. Thank you for sharing your 
time and expertise. We really, really appreciate it.
    I want to give a shout-out to Vice Chancellor Lehman. NYU 
is near and dear to my heart. I am very proud to have that as 
one of the wonderful institutions in New York City. And while 
you are not in New York City, you are certainly an extension of 
that wonderful, wonderful campus. And so welcome. And I also am 
told that you are a native of Bronxville, New York, which is in 
my district. So that is two good things. And I know you have 
come a long way to be with us today, all the way from Shanghai. 
I am so grateful to see you.
    I support these things. I think academic exchanges are a 
very critical tool to building relationships between Americans 
and people around the world. I was a teacher myself. Before I 
ever got a law degree, before I ever went into politics, I was 
a classroom teacher. I have seen firsthand how new ideas and 
new perspectives can transform a student's understanding of the 
world and of themselves. And when students from around the 
world sit in our classrooms, or when American academics teach 
and research abroad, I really believe it helps to spread 
knowledge and understanding. And these person-to-person ties 
are the foundation of strong engagements between countries and 
governments. And that is why I think these exchanges are a 
priority and should remain so in our foreign policy. So thank 
all of you for what you do.
    The United States and China have a troubled relationship in 
many ways, but have a long history of educational exchange. And 
as Mr. Daly testified, the U.S. has had far more influence on 
China as a result of these educational exchanges than China has 
had on the United States. So we should put aside the question 
of whether these exchanges should take place, the value, as far 
as I am concerned is clear, but we should be asking how they 
take place. We need to make sure these educational agreements 
continue to benefit students and teachers, and also to advance 
American interests.
    We have heard that NYU has worked hard to maintain full 
academic freedom on their campus in Shanghai. So far the 
Chinese authorities, I am told, haven't interfered with course 
material or classroom discussions. So to me, it seems that the 
NYU Shanghai campus is resulting in more freedom and a greater 
exchange of ideas, not less. To be sure, NYU needs to stay 
vigilant in protecting these freedoms, and I expect that will 
be the case.
    Another issue is whether financial arrangements between 
university partners could prejudice the academic freedom of 
U.S. institutions. Fort Hays State has established two campuses 
in China that issue U.S. bachelor's degrees to Chinese 
students, one through a partnership with Sias International 
University, and one with the Shenyang Normal University.
    Dr. Martin, I guess, will testify in your written testimony 
that the faculty have voluntarily chosen to avoid the topic of 
the Tiananmen Square massacre. The issue is considered too 
sensitive for discussion in China. I think we need to take a 
hard look at this sort of self-censorship and how it relates to 
the academic freedom of American institutions, and I look 
forward to a rich discussion.
    So I am going to end by again thanking the chairman for 
having this very important hearing and thanking our witnesses 
for giving their unique perspectives. That is how we in 
Congress learn. We talk to ourselves too much. We like to learn 
by talking to people who are experts in what they do.
    So thank you all, and I appreciate you coming here today.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Engel.
    Dr. Martin, please proceed.

STATEMENT OF MIRTA M. MARTIN, PH.D., PRESIDENT, FORT HAYS STATE 
                           UNIVERSITY

    Ms. Martin. Good afternoon, Mr. Chairman and distinguished 
Members of the U.S. House of Representatives. Thank you for 
affording me today the opportunity to come before you and to 
provide you with testimony. In the interest of time, and with 
your permission, Mr. Chairman, I will provide you a summary of 
those comments since you have the full spectrum in your 
possession.
    Fort Hays State University was established in 1902 when the 
U.S. House of Representatives decommissioned the U.S. Army 
Base, Fort Hays, and gave the land to form a state university. 
Since then, Fort Hays State University has evolved and is now a 
regional comprehensive university serving close to 14,000 
students through three modalities: On campus, where we serve 
approximately 4,800 students; the Virtual College, which 
delivers online education to about 5,800 students located in 
Kansas, nearly all 50 States, and the U.S. Armed Services 
personnel internationally; and in China, where we have 
approximately 3,100 students.
    In March 1999, Fort Hays State University was introduced to 
a private university in China, Sias International University, a 
university that had previously been approved by the Chinese 
Government. Sias affiliates with the prestigious Zhengzhou 
University, located in the Henan Province of China, which is a 
sister province to the State of Kansas. Fort Hays State 
University's profile was presented to the Ministry of Education 
in China, who approved the request to deliver courses leading 
to a bachelor's degree. This partnership came under the Chinese 
regulation of Sino-Foreign Cooperation in Running Schools, and 
the initial agreement was signed in May 2000.
    In the fall of 2000, Fort Hays State University delivered 
its first courses to 40 students. Fort Hays State University 
does not have a satellite campus in China; rather, it operates 
through a partnership agreement to deliver courses leading to 
bachelor's degrees which are dual in nature. These courses are 
taught by faculty hired by Fort Hays State University, many of 
whom live on the campuses of our partner institutions, and Fort 
Hays State University has labeled the delivery of these courses 
cross border education.
    Soon after offering Fort Hays State University's first 
courses, we were asked by the Chinese Government to provide the 
syllabi, textbooks, and other instructional resources, as well 
as the faculty credentials for the courses offered to Chinese 
students. All materials requested were forwarded to the Chinese 
Government, and soon thereafter we were approved to deliver 
bachelor's degrees in China. There was no censorship of the 
content of any course by the government, nor by the university 
partners. The Chinese Government has never asked again to 
review our curriculum, to review our content, or to review the 
faculty credentials.
    In 2010, Fort Hays State University's two partners, Sias 
University and Shenyang Normal University, which was approved 
in 2004, were selected by the Ministry of Education to conduct 
a self-study related to the quality and performance of the dual 
degree programs. Other universities through the world that fell 
under the regulations, entitled Sino-Foreign Cooperation in 
Running Schools, were also selected. The work was not 
inconsequential and the results identified Fort Hays State 
University's practices as a model for other universities. As a 
matter of fact, 50 percent of the partners operating in China 
at that time failed this regulation, and as a result their 
partnerships were canceled.
    The guarantee of teaching quality is the sole 
responsibility of Fort Hays State University. Faculty teaching 
in China report to international coordinators and department 
chairs who are located on the campus of Fort Hays State 
University, just like any other faculty would that teach on our 
campus. All faculty teaching in China are required to attend a 
week-long training in Hays, America, conducted by the Fort Hays 
State University academic units prior to even setting foot in 
China. The Chinese Government, as a matter of fact, has been 
rather impressed that Fort Hays State University spends 
significant financial resources and time to train our faculty 
and to ensure academic rigor and academic consistency.
    Faculty have had total control over the design and content 
of the curriculum. The textbooks and other circulor materials 
are selected only by our faculty. The partners purchase these 
materials from import-export companies and the students are 
required to refer to them in the classroom. Rarely, the 
administration of the universities or the party secretary visit 
the Fort Hays State University courses.
    At this time, Mr. Chairman, with your permission, I would 
like to brief you very quickly on the programs offered by Fort 
Hays State University in China. All Chinese students enroll in 
an academic program offered by Fort Hays State University and 
they take English Composition sequence 101 and 102, as would 
our students here in the United States. The sequence provides 
the foundation for introducing Chinese students to Western 
values and the Western educational system.
    One of the most important goals of these courses is the 
development of critical thinking and analytical skills. These 
English courses mirror the courses offered on campus at Fort 
Hays State University, although they are augmented with English 
for foreign language learners strategies to accommodate the 
foreign students' abilities as English learners. Chinese 
students are held to exactly the same standards of academic 
integrity as our U.S. students, and classroom practices, such 
as group work, collaboration, and active participation, which 
foster Western educational values. The Department of Leadership 
Studies in the College of Arts and Sciences has offered a 
bachelor of science degree at Sias University and Shenyang 
Normal since 2008.
    Despite the academic freedom enjoyed by faculty teaching 
the curriculum, Fort Hays State University has experienced some 
instances where the faculty of the partner school has been 
complacent in undermining academic integrity, but Fort Hays 
State University has met with the partner institutions' 
leadership team to work through solutions to these issues 
surrounding academic integrity, and requests by Fort Hays State 
University have been met with great support. I will say that 
more faculty and more student training, the use of student 
identification cards, and enforcement of policy need to be 
fully implemented to augment the progress in this area.
    As a whole, Fort Hays State University has dealt with 
issues of academic integrity by taking the stance that we own 
the curriculum and that our standards of academic rigor and 
academic excellence will not be sidetracked. Collaboration 
between Fort Hays State University and the Department of 
Political Science has been extremely positive. We have 
experienced absolutely no efforts to infringe the academic 
freedom or integrity of our Political Science: Legal Studies 
program. All universities have been respectful, transparent, 
and collaborative with each other. Learning about the American 
system of government and law has been the key learning 
objective of this program.
    In the decade of teaching American law and government at 
two institutions in China, Fort Hays State University has never 
encountered any resistance in teaching Western values or 
political structure. Through the political science curriculum, 
the students receive extensive exposure to the U.S. democratic 
system of government and rule of law. In courses such as the 
American Government, Introduction to Law, and Constitutional 
Law, faculty spend a significant amount of time discussing the 
issues of civil liberties, and civil rights, including the 
concepts of due process, equal protection, freedom of speech, 
freedom of the press, freedom of religion and assembly, and the 
rights of criminal defendants. In essence, we discuss our Bill 
of Rights.
    The predominant programs at Fort Hays State University's 
College of Business and Entrepreneurship, such as the Bachelor 
of Business Administration in Management and the Bachelor of 
Administration in International Business and Economics, by 
their nature, typically do not involve subjects that are 
sensitive or political in nature. However, our faculty have 
always had access to Western academic databases, albeit 
limited, and have never been prevented from sharing Western 
scholarship in the classroom setting.
    Every semester Fort Hays State University conducts student 
and faculty evaluations, and the results of these are used by 
the academic departments on the campus of Fort Hays State 
University to modify and improve quality and the performance of 
students overseas. Fort Hays State University faculty display 
principles of academic freedom and transparency in their 
teaching, research, and discussions with the students in China. 
Discussions regarding learning objectives for degree programs, 
majors, and individual courses have all been given and accepted 
in an atmosphere of transparency.
    China's new leader, Xi Jinping, has made no secret of his 
ambitions to revitalize China and increase her influence on the 
global stage, as you have stated earlier, Mr. Chairman. 
President Xi has made it clear that he wants to build an 
innovative society with strong tech firms that compete 
internationally. Fort Hays State University was selected and 
approved to deliver the first American bachelor's degree to 
Chinese students on mainland China, and I believe that because 
of that and because of the strength of our curriculum we are 
highlighting to China and the students all that is great in 
America.
    The challenges that we have faced have been addressed 
together with our Chinese partners under the auspices of their 
respective education commissions, and we have protected the 
academic freedom and integrity of our programs. I believe that 
the greatest outcome of the relationships are our Chinese 
students' expanded knowledge of the world and the United 
States. The Chinese students have similar aspirations to those 
of the U.S. students: To be engaged in their communities, to 
own their own businesses, to be successful leaders and role 
models for their families, and to improve our world.
    Tom Friedman in his book, ``The World Is Flat,'' writes 
that students who have the facility of two languages, have a 
cultural experience in another country, and use technology to 
communicate worldwide are true citizens of the world. They are 
equipped and ready to change the world in a positive way.
    As I conclude, I would like to leave you with some final 
thoughts. From the early days of our Republic, our forefathers 
recognized the value of a widely and highly educated citizenry 
to the success and stability of our Nation. Indeed, we have 
created a system of public and private higher education that is 
the worldwide standard for academic excellence. As an immigrant 
to this country, sir, I submit to you that we, as a Nation, 
need to go back to those roots. We need to return to the 
guiding principles established by our Founding Fathers that 
support and deliver a superb education because it is essential 
to the common good.
    This year the Chinese Government mandated that English be a 
required course in middle school. They are committed to 
educating the citizenry to do business in the global 
marketplace. We need to do the same. We need to look beyond our 
current status and recognize that knowing how to do business in 
the East, that knowing how to do business in the world will be 
a determining factor in the prosperity of our children and the 
success of our Nation. Fort Hays State University stands ready 
to continue to build bridges that connect and educate our 
world.
    Thank you, Mr. Chairman. Thank you, distinguished Members 
of the House of Representatives.
    [The prepared statement of Ms. Martin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Smith. Dr. Martin, thank you so very much for your 
testimony. And your full statement as well, I think I mentioned 
this earlier, as well as anybody else, will be made a part of 
the record, and anything you want to add to it, any extraneous 
materials.
    Ms. Cao.

  STATEMENT OF MS. YAXUE CAO, FOUNDER AND EDITOR, CHINA CHANGE

    Ms. Cao. Dear Congressman Smith and the members of the 
subcommittee, I am pleased to speak today about the Chinese 
Government's policy on joint higher education ventures, its 
mechanisms of controlling them, the Communist Party's presence 
in these ventures, and the regime's suppression of academic 
freedom in Chinese universities.
    China first set the rules for the joint-venture higher 
education programs in 2003. In 2010, China issued the National 
Plan for Medium and Long-Term Education Reform and Development 
that devotes a chapter, Chapter 16 that is, to these ventures. 
The purpose of these joint ventures is to bring the best 
international higher education resources to China. This 
includes bringing world-class experts and scholars to China to 
engage in teaching, research, and management, conducting joint 
research with the best universities in the world, all to 
advance the science and technology, and encouraging foreign 
universities to use their intellectual property as their share 
of investment in these ventures.
    When entering WTO in 2001, China promised to open its 
education sector to foreign universities, allowing ``foreign 
majority ownership,'' but China has had no intention to deliver 
that promise. Instead, it set up joint ventures with the 
Chinese Government being the controlling party. The rules 
stipulate that the board of these joint ventures must have a 
Chinese majority and the president must be a Chinese citizen. 
Courses and textbooks must be filed with the authorities. These 
programs must provide courses known as political thought 
education to the Chinese students.
    The most insidious part of the control mechanism probably 
lies in the finance of these joint-venture universities. It is 
also the least transparent part. Financial dependence on the 
Chinese Government, even if it is partial, puts foreign 
universities in the vulnerable position where they may feel the 
need to conform to China's expectations, not only on the joint-
venture campuses, but also on home campuses.
    The 2,000 also joint-venture programs in China are mostly 
focused on advanced technology. Thirty-seven percent of them 
are engineering, while literature, history, and law are less 
than 2 percent each.
    China is also bringing its quest for knowledge to the U.S. 
soil. Last year, China's elite Tsinghua University, the 
University of Washington, and Microsoft launched the Global 
Innovation Exchange Institute in Seattle that focuses on 
technology and design innovation. In the Chinese press this 
institute was described as, ``An important step in the 
milestone of Tsinghua University's international strategic 
deployment.'' China is seeking to invest in the research 
triangle in North Carolina and also establish innovation 
platforms elsewhere in the U.S. with Chinese investment and the 
research expertise from American universities.
    Another component of China's strategy is theft. Reports on 
this abound. For example, in May, Penn State University 
disclosed that its engineering school had been invaded by 
Chinese hackers for more than 2 years. Penn State develops 
sensitive technology for the U.S. Navy.
    China's intentions are probably best illustrated in two 
incidents involving UC Berkeley. In November 2014, Peking 
University gave the president of UC Berkeley an honorary 
professorship, and they expressed the desire in ``cooperation'' 
on big data processing technology, which has wide applications. 
Three months later, a labor rights center in Guangzhou jointly 
established by UC Berkeley and the Sun Yat-sen University was 
forced to close as part of a systematic suppression of rights 
activities and civil society in recent years.
    Reports in the Chinese press confirmed the CCP presence on 
joint-venture campuses as well. From the Ministry of 
Education's review of joint-venture programs in 2014, I quote:

        ``Joint-venture universities have established the party 
        committees so that there would be a party organization 
        wherever there are party members, achieving the party's 
        no-blind-spot coverage on the grassroots level. Some 
        universities have also established the overseas party 
        cells to ensure that the party's work remained 
        synchronized with its work at home when students study 
        abroad.''

    In China's current political system there has never been 
academic freedom as understood by Americans, though the level 
of repression has fluctuated. Since early 2013, a CCP order 
known as Document No. 9 has shut down what little academic 
freedom was enjoyed before. The Christian Science Monitor 
reported recently that professors were fired or pressured to 
quit their jobs for exposing liberal ideas and teaching them in 
the classroom. Trips to academic conferences were cut or 
constrained. Student reading lists were vetted for ideological 
content. On some campuses classrooms are monitored by 
surveillance cameras.
    Over the last 30 years the Communist regime has benefited 
enormously from the unprecedented transfer of knowledge from 
Western countries, much of it through joint business ventures 
and through theft of intellectual property. Many such relations 
have soured in recent years and the trend is likely to worsen. 
Now it seems that the Chinese Government is duplicating the 
successful model in higher education while pursuing an agenda 
to stamp out the Chinese people's demand of freedom.
    I have no problem with the free exchange of knowledge, but 
I have a problem with freely providing knowledge to the 
Communist regime and to strengthen its grip on power. I have a 
problem with our institutions of higher education looking the 
other way as terrible suppression of freedoms and civil society 
take place in the country.
    On a personal level, for the 3 years I have been an 
activist of human rights in China, all the peoples, I mean all 
the peoples have been in jail now. Some of them left the 
country for political asylum, but almost all of them are in 
jail.
    The U.S.-China relationship for the last 3 years has 
operated on the premise that the U.S. should engage with China, 
help her grow economically, and the economic development will 
lead to the Chinese Communist Party's embracing human rights 
and democratic values. Instead, today we have a monstrous 
combination of state capitalism, the kleptocratic marriage of 
power and money, and the broader and harsher suppression of the 
Chinese people and their legitimate demand for political and 
civil rights. Internationally, we are witnessing an 
increasingly aggressive China, a rising threat to the peace and 
security of the world and a challenge to the existing world 
order.
    One can argue about all the defects of the current order, 
but I assure you with absolute certainty that you do not want a 
global regime set up and dominated by the Chinese Communist 
Party. The CCP has mastered the game of taking advantage of a 
free society like ours. It is sad to see how easily our 
universities can fall prey to the party's scheme. It is my wish 
that American universities are able to see the full picture, 
where they fit into it, and what end they are serving when 
entering joint ventures with the Chinese Government.
    Thank you very much.
    [The prepared statement of Ms. Cao follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony and 
your research.
    Let me first begin the questioning first with Mr. Lehman, 
if I could. Is it your testimony that the Chinese Government 
officials have no say whatsoever in hiring, firing, promotion 
of NYU personnel, including your professors and teachers?
    And when it comes to admissions, how is that determined? 
For example, can a son or a daughter of a dissident be accepted 
to NYU? What is the cost? What is the tuition, fees, and all 
when you add it all up together for an academic year for a 
student? How much of that is paid for by the Chinese 
Government? I mean, getting to who actually owns NYU Shanghai, 
is it a partnership where 51 percent is you or them? We just 
don't know on this side of the aisle.
    But, again, how much are those student fees and tuition is 
subsidized by the government? And if they don't have a say in 
who is admitted to NYU, I mean, do they just give you the money 
and then you decide who it is that comes in?
    I do want to thank you for the invitation offered broadly 
to Members of Congress. I accept. I would very much like if you 
could provide me with an invitation to speak on human rights. I 
would love to give a lecture on religious freedom and other 
human rights issues.
    This is my 53rd hearing on human rights in China. I have 
chaired probably close to 500, if not more, human rights 
hearings covering from human trafficking, to forced labor, to 
issues of every kind. The students and professors might find it 
of some interest. So I would hope, if you could extend that to 
me when we are not in session, I and my staff will be there.
    Let me also ask you too, and I know I am throwing a number 
of questions right out first, but how do you vet NYU teachers 
there to ensure that--the Chinese Government, as we all know, 
is extraordinarily effective in placing people in positions, 
they do it in business all the time, that keep a very sharp eye 
on others to ensure conformity to what the party wants. How do 
you ensure that the people you are hiring are not agents or 
people reporting back and surveilling both other teachers and 
others, personnel, as well as the students?
    I yield.
    Mr. Lehman. So thank you, Chairman Smith, and I will try to 
answer all of the questions. If I miss one of them, please feel 
free to remind me and I will do my best.
    I will start at the end and the beginning, which was the 
question about faculty appointments and how they work. So 
faculty appointments at NYU Shanghai are the same as they are 
at NYU New York. That is to say, they are led by a provost on 
our campus, who is Joanna Waley-Cohen, who is seated behind me 
today. She was the chairman of the History Department at NYU 
for many years. She was on the NYU faculty for decades before 
coming to NYU Shanghai.
    The process is, we announce that we are holding a search. 
It is a global search, and the search is for the best people in 
the field. The searches are done by discipline. Because we are 
starting out, we don't have a large established faculty in 
Shanghai, and so we rely on faculty from NYU's campus in New 
York to help us to conduct the search. And the search is all on 
the academic merits.
    It is a very rigorous and extensive process. Potential 
faculty members' publications are reviewed by the search 
committee. A small group of finalists are then brought in to 
give what are called job talks, where they have to give a 
lecture, effectively conduct a class in the way that they 
should, and then ultimately offers are extended.
    You can see from Appendix 1 to my testimony the list of the 
people who are teaching at NYU Shanghai. They are 
extraordinarily distinguished people. They did their academic 
training at the finest universities in the world. They did 
postdocs at the finest universities in the world. We also have 
visiting faculty from New York who are members of the National 
Academy of Sciences, the American Academic of Arts and 
Sciences. This is an extraordinary group of faculty. People who 
have held endowed chairs at institutions like Cornell and 
Northwestern University have come to teach with us.
    The Communist Party has no say, the Chinese Government has 
no say, no voice in this process at all. East China Normal 
University, which is the partner to NYU in this process, has no 
voice in this process. Our graduates get degrees from New York 
University. They get degrees from the trustees of New York 
University. They do not get degrees from East China Normal 
University. So NYU is responsible for the education that they 
receive and the quality that they receive.
    In terms of the admissions process, again, it is completely 
controlled by NYU. The process is complex. So half of our 
students come from China and the other half come from the rest 
of the world.
    Mr. Smith. And that is what, about 2,000? What is the 
number that you will build out to?
    Mr. Lehman. When we are full grown, it will be 2,000 
undergraduates. That is to say, 500 per year, 251 from China in 
each entering class, 249 from the rest of the world. In the 
startup period, we have had only 300 students in each entering 
class, so 151 from China, 149 from the rest of the world.
    The students who apply from the rest of the world follow a 
process that is the same as for NYU New York, NYU Abu Dhabi, 
the common application, they submit essays. They indicate which 
campus they would like to go to, and they are free to select 
Shanghai or New York or Abu Dhabi or any two or all three as 
their preferences, and they can rank what their preferences 
are. The process is a little bit more intensive than it is in 
New York because we are small. So our admissions office in New 
York is able to actually conduct video interviews with 
finalists who are applicants in New York.
    Mr. Smith. Can I ask you, while you are answering, can a 
Falun Gong practitioner be admitted to NYU and also be hired as 
a professor?
    Mr. Lehman. Sure. I mean, they could.
    Mr. Smith. Do you have any?
    Mr. Lehman. No, we don't have any. I don't know that we 
have received any. We don't ask people about their religious 
preferences when they apply for application.
    Mr. Smith. But you believe you would be free enough that if 
a Falun Gong practitioner said, ``This is my expertise,'' has 
the academic gravitas to take on that position, you would be 
able to do it?
    Mr. Lehman. Yeah. If they were the most qualified 
applicants we could hire them, absolutely.
    Mr. Smith. But is there any fear of self-censorship where 
you believe that could hurt your standing with the government? 
You would have no such concerns?
    Mr. Lehman. We came on a condition, and the condition was 
that NYU would be NYU. And the government said: Good, that is 
what we would like. If they were to change their mind, then we 
would leave. But so far, so good.
    So as the other witnesses have testified, China is a 
constantly changing place. And it is as Mr. Daly testified 
right now, there are mixed signals all around us. We hear 
different voices all the time. And so we don't know what 
tomorrow will be like. But I would be very surprised if the 
government of Shanghai were to say: Well, sorry, we don't want 
you anymore. But they could. That is their prerogative. 
Conversely, they could try to go partway and say: Well, we want 
you, but you can't have academic freedom. And if they did that, 
then NYU would leave.
    Mr. Smith. Well, can I ask you then in followup, there was 
a letter dated September 3--I am sure you have seen it--2013 to 
the NYU Board of Trustees signed by five members of the 
faculty, including Andrew Ross, the president of NYU AAUP, and 
they wrote, ``We are obliged to record some grave concerns 
expressed by our members about the prospects of academic 
freedom in China and at the new campus.''
    They speak to the seven silences and whether or not those--
and I mentioned in my opening universal freedoms, press 
freedom, and the like--would be able to be spoken about, 
discussed, inquiry in an unfettered way. And they also said how 
concerned they were, and this is their words: ``Under such 
circumstances, self-censorship of instructors and students is 
certain.'' They didn't say it is a probability, they said it is 
certain. How do you respond to that?
    Mr. Lehman. Well, they are entitled to their opinion, but 
that opinion is not correct. That letter was written just as we 
were starting to begin teaching, and I think it was perhaps 
appropriate at that time for them to have had some concerns 
about how things would play out. But as things have played out, 
we have enjoyed full academic freedom on our campus.
    And so I don't know all five, I don't recall all five of 
the signatories to that letter, but certainly one faculty 
member from New York who was quite vocal in expressing her 
concerns about how things would play out in Shanghai has talked 
with us and has gone back and told people: No, there is 
academic freedom, absolutely, at NYU Shanghai.
    I would actually direct your attention, there is a blog 
published by a professor called PrawfsBlawg, and in it there 
was a submission by a member of our faculty who talked about 
his course at NYU Shanghai. He is a member of the law school 
faculty at NYU New York, and he was visiting with us.
    And in his course, he says, in response to something that 
he had read: ``I could not speak for anyone else at NYU 
Shanghai, but I, myself, am teaching exactly what I want with 
the usual lack of oversight enjoyed by any professor teaching 
at NYU in Washington Square,'' in his course. ``As an example 
of my unhindered freedom, my course requires the students to 
compare U.S. and Chinese constitutional rules and concepts, and 
as background for this comparison I assign so-called 
`sensitive' documents such as the infamous Document Number 9.''
    This is the kind of classroom that we have at NYU Shanghai 
today. And I do believe it is important that we have classrooms 
like this in order to be true to our mission as NYU.
    Mr. Smith. Just so I am totally clear, it is your testimony 
that the seven taboos or seven silences--universal values, 
press freedom, civil society, citizens' rights, criticism of 
the Communist Party's past, neoliberal economics, and 
independence of the judiciary--can all be taught in an 
unfettered way on your campus without any fear of retaliation? 
That is what happening?
    Mr. Lehman. That is my testimony. It is absolutely true. 
That is the case. And I should say, one of the interesting 
points about the seven taboos--and this is just an example of 
how complicated China is today--one of them I think that you 
mentioned is on neoliberal economics as a banned topic. If you 
go in Shanghai to the Tsinghua book store and look, you will 
see a display of two of the most prominent books right now 
there, and one of them is the speeches of Xi Jinping, and the 
other one, next to it, is a Chinese translation of a book by 
Professor Ned Phelps called ``Mass Flourishing.''
    Professor Phelps is a professor at Columbia University. He 
won the Nobel Prize in Economics. And ``Mass Flourishing'' is 
about the way in which modern capitalism is essential to 
enabling humans to flourish in a society that values what he 
calls vitalism. That is Shanghai today.
    And so, yes, on the one hand, there are these seven 
taboos--never given to us, never given to NYU Shanghai, I 
should say, but I have heard about them. I have never seen 
them. But I seen them referred to widely. So there is that 
document out there.
    And I should say Premier Li Keqiang has spoken about Mr. 
Phelps' book and has spoken about its importance. Premier Li 
Keqiang gave a talk in February in which he talked about Adam 
Smith's ``Theory of Moral Sentiments'' and it is importance to 
their thinking about how the economy should develop.
    There are mixed signals everywhere in China today. We at 
NYU Shanghai operate consistent with our principles and no one 
has told us not to.
    Mr. Smith. Not to belabor the point, but how much of a 
student's cost, total costs are borne by the government? And 
does that have any impact as to how you bring students in, 
admit students into the school?
    Mr. Lehman. Sure. So the tuition for NYU Shanghai is the 
same as the tuition at NYU in New York. It is about $45,000 per 
year.
    Mr. Smith. Is that in keeping with other colleges or 
universities in China? Is that parallel to or far in excess of?
    Mr. Lehman. You mean other Chinese universities?
    Mr. Smith. Yes.
    Mr. Lehman. Wildly in excess. Wildly in excess of what it 
is. And I believe that that is reflected in the nature of the 
education that we provide. The kind of education we provide is 
very labor intensive and it is very expensive. And I believe 
that it is actually reflected in the difference in the quality 
of the education that we provide.
    Now, that level of tuition would be unaffordable to many of 
the best Chinese students. And therefore one of the important 
conditions of opening NYU Shanghai was that there be a subsidy 
from the government of Shanghai that would enable Chinese 
students to pay 100,000 Renminbi per year, which is about 
$17,000, instead of $45,000. So that works out to about a 
$28,000 per-student subsidy for all Chinese students, not only 
ones----
    Mr. Smith. Who actually pays that, the central government 
or the Shanghai----
    Mr. Lehman. Shanghai, city of Shanghai.
    Mr. Smith. City of Shanghai.
    Mr. Lehman. City of Shanghai.
    And so if you look at the overall structure of our budget, 
as I said, NYU Shanghai is a tub on its own bottom. So no 
profits are distributed to NYU in New York and no subsidy is 
demanded from New York. Our budget is self-contained.
    So when we are full grown, when we have 2,000 
undergraduates, the plan for the budget is that about 60 
percent of the total cost of operating the campus will come 
from tuition, about 25 percent will come from government 
subsidy, and of which about 14 of that 25 percent is going to 
be going to financial aid for Chinese students.
    Mr. Smith. Again, the tuition would be 60 percent. A large 
part of that is from the government as well, so----
    Mr. Lehman. No, no, no. The 60 percent is what is sometimes 
referred to as sticker price tuition. So that is tuition. 
Financial aid reduces that cost for--is part of the 
expenditures against which that operates.
    So another way to think about it, I guess, would be to say 
the total budget will be about $200 million a year. About $60 
million of that, $55 million of that, will be going to 
financial aid. So that means there is about $145 million left 
for operating costs. So I am talking about percentages of the 
$200 million.
    About 60 percent of that $200 million comes from tuition, 
about 25 percent will come from government, and the last 15 
percent will come from private philanthropy, and to the extent 
we operate executive education programs that are able to 
produce net surplus, that will be part of the last 15 percent.
    Mr. Smith. Just one final question on the admissions.
    Mr. Lehman. Yes.
    Mr. Smith. Are the students the children of the elite, are 
they just any child, any young person, I should say, who 
aspires and has the academic credentials to make it? And when 
the decisions are made by your local board, are there Chinese 
nationals on that board who are influencing this or is it done 
exclusively by NYU coming out of New York?
    Mr. Lehman. Exclusively by NYU.
    Mr. Smith. New York, I mean.
    Mr. Lehman. NYU New York. I mean, we have local staff.
    Mr. Smith. But my question is about the vetting before. Who 
are the local staff? I mean, how do you know they are not 
clandestinely part of the government apparatus?
    Mr. Lehman. Well, I could be wrong, I suppose. I mean, I am 
not experienced at spotting----
    Mr. Smith. I mean, to shell out $28,000, you would think 
the government would want to have a main say in who it is that 
gets admitted.
    Mr. Lehman. I don't believe so. The mission here is for us 
to have the best and the brightest in China studying with us. 
So we have students who turned down Peking University, turned 
down Tsinghua University, turned down Fudan, turned down 
Berkeley, turned down Cornell for the opportunity to be a part 
of this very special academic experience.
    The concern both at NYU and, honestly, by the city of 
Shanghai, was that at $45,000 a year it would simply be a 
playground for children of the rich and that would not be 
acceptable. So it was necessary from the beginning to structure 
this to make NYU Shanghai affordable. Now, some students can't 
afford 100,000 Renminbi either, and so we have need-based 
financial aid as well, in addition to sort of the flat 
reduction to 100,000 RMB.
    The process, we have thousands and thousands of applicants 
from all across China for these 150 seats. And so the process 
that is followed is they send us their high school grades, 
their letters of recommendations from principals, their essays. 
And that written portfolio is reviewed first by our staff in 
Shanghai, then by our staff in New York, and a group of about 
500, the top 500, are invited to come to our campus for what we 
call Candidate Day.
    And in Candidate Day, they are in batches of 125. They have 
one-on-one interviews with us. They have sample classes. They 
write essays. We want to be sure that they are ready to study 
in the kind of academic environment that we provide, that their 
English is good enough. And after that Candidate Day process, 
we then identify the top 150 or so, to whom we extend 
conditional offers of admission.
    Now, the condition is that they then have to take this 
Chinese examination known as the gaokao, which I am sure you 
are familiar with, which is the national admissions exam in 
China. They then have to score in the top tier on the gaokao in 
order for their offer of admission actually to be effective. 
Almost all of them do, but every year, unfortunately, some of 
them do not.
    This process, I will say, Chairman Smith, I have complete 
confidence in. It is not an ideological screen. It is not 
controlled by the government. You asked me to speculate why the 
government would give us money to subsidize this if they don't 
get to control admissions.
    Mr. Smith. Or even influence.
    Mr. Lehman. Or even influence admissions. I will give two 
partial answers to that.
    Most of our financial aid in the United States in American 
universities is underwritten by donors, by private 
philanthropists who make gifts, and that accounts for the 
ability to give financial aid. And the question is, why do they 
make these gifts if they don't get to influence who they are 
supporting? And the idea is there is a sense that you are doing 
good if you are opening up access on the basis of merit rather 
than on the basis of financial capacity. And I honestly believe 
that that is a big part of the motivation here.
    Separately, I would say, because we are so small, if there 
were ways for the government to influence who came, to say, 
okay, there is a special side door for children of privilege, 
that would destroy our reputation in China immediately. I mean, 
word would get around in a flash. The social media in China 
today are an unbelievably powerful force. Mr. Daly spoke about 
the comments, about Minister Yuan's comment, alleged comment. 
And I think everyone in China knows that this is all very, very 
visible.
    And so, again, we haven't received that kind of effort to 
influence yet, but if it were to come, we will be vigilant.
    Mr. Smith. Can I ask you, Dr. Martin, did you receive that 
kind of subsidy or anything close to it?
    Ms. Martin. No, sir. Our program is a little bit different, 
obviously, because it is an undergraduate program conducted at 
two universities. Sias University, as I shared earlier, is a 
private university, whereas SNU is a public university. 
Normally students who come to the campuses pay for their 
degree.
    As you know, there are two types of students in China: 
Those who are termed planned, which as was stated earlier, 
achieve a certain high percentage in the gaokao examination, 
and then those who are unplanned, which means that they did not 
fall within the auspices of those examinations.
    The planned students are subsidized normally by the 
government, whereas the unplanned are not. And so for many who 
are unplanned students at the private universities, the 
education and the degree that they obtain through the courses 
and the program at Fort Hays State University is their only 
chance to have access to an education in China.
    Mr. Smith. Any of our distinguished witnesses, if you want 
to chime in or speak out on anything you hear, please.
    Yes, Ms. Cao.
    Ms. Cao. I just want to add a few points, because I was the 
one who did this research on ``NYU Shanghai: What's the Deal,'' 
in February. So I know a few things from--almost all my sources 
are from the Chinese language sources when I posted this, and 
several NYU faculties wrote me thinking it is very, very 
helpful, and the fact that they knew it is a joint venture, but 
what it means really was lost to most of the faculty members at 
the NYU here.
    Now, just pick Professor Lehman's comments. I want to point 
out, at least at the early stage, at least that, that may or 
may not be the case now, that at least at the very early stage, 
NPR, when the Shanghai campus opened in 2013, right, NPR had 
the article, interviewed a half-dozen also American students, 
all of them received generous tuition from NYU Shanghai. And 
some were even paid with their plane tickets.
    So where does that money come from? All of them were given 
huge tuition fees that cost--let me read from the original NPR 
report--that one of the students was offered a deal worth 
$228,000. That is huge. And, quote from the NPR report, ``The 
half dozen others with whom NPR spoke said that they got either 
generous discounts or free tuitions.'' So that is one comment I 
want to make.
    Another comment is about the philanthropy part of NYU 
Shanghai. There was an article I found in Chinese that 
described this newly found foundation called the Education 
Development Foundation at the NYU Shanghai. NYU President 
Sexton referred to the three distinguished people on this 
foundation, and I was amazed to find that two of them were 
high-ranking Chinese party officials, retired.
    And these are officials, in the Chinese culture parlance, 
they are called the tui ju er xian de guan bu, which means, 
``Communist cadres working on the second front,'' meaning that 
they work in the nongovernment sector to exert government 
control.
    So I just find the word ``philanthropy'' is misleading in 
here because of exactly where does the money come from? It 
could still come from the government, even it is labeled as 
fundraising philanthropy. I don't know. I am just saying 
because this foundation is led by former high-ranking 
officials. One of them was a former member of the CCP Central 
Committee. That is very, very high ranking. I mean, you have 
what, 1,000, a few hundred CCP Central Committee members across 
the country?
    And also just on a more playful note, the Chinese elite 
privileged kids, guess what? They don't want to go to NYU 
Shanghai. They all come here, to Harvard, to Princeton, to 
UPenn, and they come here. So that is my comment.
    Mr. Smith. If I could, Mr. Lehman, maybe ask you another 
question, whether or not discussions about--and, Dr. Martin, 
this would be to you as well and any others who would like--can 
there be a robust discussion about the Dalai Lama?
    I led the congressional effort to nominate Liu Xiaobo, Chen 
Guangcheng to get the Nobel Peace Prize, went there when they 
had the big, empty chair, which is one of the most 
heartbreaking scenes ever. And of course Liu Xiaobo's wife is 
not doing very well, and she is under a kind of house arrest.
    Here is a Nobel Peace Prize winner. We are going to hold 
another hearing on Liu Xiaobo very soon to try to keep the 
focus on a Nobel Peace Prize winner who is languishing in 
prison. And my question would be, can you discuss his work? Can 
you do it? Dr. Martin, as well, and Mr. Daly, do you want to 
speak this, or anyone else?
    And, again, in an unfettered way, because the crackdown 
there was so complete they even threatened the Nobel Peace 
Prize Committee and the host country for having the audacity to 
raise his issue, as they did so well in nominating him or 
selecting him.
    Let me also ask with regards to religious freedom, can 
Bible studies exist? Can, again, Falun Gong practitioners 
engage in their spiritual exercise on campus?
    Internet freedom. We know how the Internet is absolutely 
abridged by the great China firewall that is in place. So, 
again, your students--I am not sure there is much anyone can do 
about that except if we keep the pressure on worldwide--but 
they are getting a very filtered set of facts and information 
via the Internet.
    But let me ask you as well, in 1983, 1984, I offered the 
first amendment that passed the U.S. House of Representatives 
on the greatest human rights violation of women's rights ever, 
in my opinion, and that is the egregious one-child-per-couple 
policy that makes brothers and sisters illegal. It requires 
forced abortion by policy. There has been talk since 1985 that 
it is relaxing, and it never seems to bear fruit. It is usually 
proffered for international consumption and to garner a 
headline somewhere that somehow they are relaxing the policy.
    And, frankly, with the implosion that is imminent in China 
because of the missing girls, we had a hearing just a few weeks 
ago, and the number of missing daughters is incalculable. It 
might be as many as 100 million or more, leading to sex 
trafficking and a disproportionality of males to females that 
is causing huge problems for the country. Hopefully, the 
government realizes their self-interest in eliminating such a 
ban on children, making children illegal.
    I asked in this room the head of the Foreign Affairs 
Committee, when she was visiting with a delegation from China, 
how they deal with the fact that 600 women per day commit 
suicide, nowhere else in the world is female suicide more than 
male, except China, and the fact that there is such a terrible, 
terrible toll and a lot of it. We don't know how much.
    But that comes for the Centers for Disease Control--theirs, 
not ours. They challenged my number. We brought down the facts 
and figures and she walked out. That was the end of that 
conversation. That is a loss of women's lives that is, again, 
unparalleled anywhere else in the world, 600 per day.
    My question would be, with regards to the one-child-per-
couple policy, and Dr. Martin as well, in one of my trips to 
China I asked a number of businesses whether or not they were 
implementing the one-child-per-couple policy, whether or not 
workers can snitch--and that is the word they used--on a women 
who is pregnant without the birth permitted coupon and 
authorization given by the government. And most of the 
businesses told me yes. These were American businesses. Some 
didn't know what I was talking about, but those that did said: 
Sadly, it is part of Chinese law and we follow it.
    And I am wondering what happens to an unwed mother, one of 
your students--and again they are not even allowed one child, 
all unwed mothers are compelled to abort or face ruinous 
fines--what is the university or the college's response to 
that? Are you in any way complicit in enforcing the one-child-
per-couple policy? Do you have a health clinic?
    My hope is that you are in no way involved, directly or 
indirectly. But what is the case with regards to that?
    Mr. Lehman. So we are in no way involved. We have a clinic 
on campus. It is a health and wellness area. It is very popular 
with our students. The mission of the health and wellness 
clinic is not to enforce the one-child policy. We are not 
charged with enforcing or implementing the one-child policy.
    Mr. Smith. But if a woman is or a young student is 
pregnant, how does that get--I mean, we have had--we have 
worked--I have worked personally, as well as my staff, on many 
cases of women who had a second-order baby, including talking 
to the Ambassador, travelling to Beijing, just to say: Please, 
cease and desist, don't kill that baby simply because the 
authorization wasn't given out.
    What does the clinic do? Do they inform government 
officials? Do they try to hide it?
    Mr. Lehman. So our clinic does not provide abortion 
services. To my knowledge, none of our students have gotten 
pregnant. If one of our students got pregnant, we would have 
absolutely no role in enforcing the one-child policy. We are 
not an arm of the government, Chairman Smith. We are a 
university.
    Mr. Smith. I understand. But my hope would be that you 
wouldn't--I mean, that woman is immediately at risk, and she 
will be forcibly to be aborted. And a student, obviously 
marriages are not even allowed to occur until 25. I read your 
Statement of Labor Values. You have a section on protecting 
women's rights.
    Mr. Lehman. Yes.
    Mr. Smith. You do put in provided by PRC law should be 
protected, talking about pregnancy, childbirth. But, again, the 
dark side of Chinese law when it comes to women and children 
is--one of them--is this terrible one-child-per-couple policy.
    If you could check to see what happens if a woman presents, 
same with Dr. Martin, so that we are no way complicit.
    [The information referred to follows:]
  Written Response Received from Mirta M. Martin, Ph.D., to Question 
     Asked During the Hearing by the Honorable Christopher H. Smith
    Fort Hays State University (FHSU) has partnerships with one public 
and one private University in China. Faculty are hired by FHSU to teach 
in China on the campus of the partner Universities. As such, they are 
FHSU employees and they are responsible only to FHSU. They have no 
reason to report any situation to Chinese authorities.

    Mr. Lehman. I will certainly check, Chairman Smith.
    Mr. Smith. Because that is, you know, there is a child's 
life and a mother's life at risk.
    Mr. Lehman. I will check and confirm that we are in no way 
complicit.
Written Response Received from Mr. Jeffrey S. Lehman to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith
    I have double checked and, as I testified, there is no requirement 
that NYU Shanghai report pregnancies to Chinese officials.

    Mr. Smith. That would be very good. I appreciate that.
    Ms. Martin. Mr. Chairman, unlike NYU, of course, you 
realize that Fort Hays State University partners with the 
institutions. So the program is owned in its totality by the 
institution, but it is delivered on a host campus, so to speak. 
So there are other students on that campus. As a matter of 
fact, Sias International University has about 30,000 students 
on its campus, and only a very small minority of those students 
are actually part of the program.
    So to the extent that the communications take place within 
our faculty and our students, their ability to discuss anything 
has never been an issue. The scholarship, their willingness and 
ability to discuss things, as you have discussed, from the Bill 
of Rights all the way up to more sensitive issues, have never 
met opposition by any of the government.
    And to that extent, one of the things that we feel very 
privileged to be able to do is to expand the mind of the 
students. I said to somebody the other day: If you understand 
why people do what they do and you understand the human nature 
of people, then you are able to put them in context and not 
judge them as bad or good, but rather create a system whereby 
you can expand your view of the world. And that is what our 
faculty try to do in China, and they do it very well.
    And addressing your statement about spiritual or religious 
freedom, they are very well able to practice their religion. 
Clearly there is not a Catholic church that they can go into in 
their neighborhood, but they are able to practice their 
religion within their own homes.
    Mr. Smith. Before going to Mr. Sherman, I do have some 
other questions that I will finish with. But under number five, 
protecting women's rights, NYU's Statement of Labor Values, it 
says: ``Women's rights during pregnancy, childbirth, and 
nursing period will be protected as provided by PRC law.''
    That is the problem, the PRC law, which is outrageously 
unethical, immoral, and out of any human rights norms, even 
according to U.N. principles, Cairo Population, ICPD, or 
anything else, because it is forced, it is coerced. And so what 
does that mean, ``as provided by PRC law,'' in your statement?
    Mr. Lehman. I wasn't part of the drafting of that, but my 
understanding, at least the way I understand it, is under 
Chinese law, after you give birth you are entitled to paid 
leave. And I don't know, I think it may be 4 months. And so I 
think this is guaranteed paid leave.
    Mr. Smith. But it does say during pregnancy as well. PRC 
law during pregnancy makes that child at the gravest risk of 
extermination at any time during their life on the planet.
    Mr. Lehman. I believe, Chairman Smith, that that provision 
is intended--I think it is framed in terms of protecting the 
rights of the woman, I believe. And so I think what that is 
intended to do is to say to the extent that Chinese law creates 
a floor under the rights of the woman, those will absolutely be 
respected. And that is not only by NYU Shanghai, but by anyone 
who deals with NYU Shanghai.
    Mr. Smith. Okay. But, again, we are talking the rights of 
the women here would be coercive population control, including 
forced sterilization and forced abortion, which is so 
egregious, at Nuremberg, at the Nazi war crimes tribunal, it 
was construed to be a crime against humanity, which it is. 
Twice the U.S. Congress has called it a crime against humanity.
    So my point is, if you could clarify that for us, what do 
you mean by that? Because if it just means enforcing--and this 
is what I have gotten from many businesses operating in China, 
it is what we got from Google when we talked about the issue of 
censorship, a different issue, of course, that they were just 
following law as promulgated by the PRC.
    Mr. Lehman. So the point of the Statement of Labor Values, 
and it is comparable to the one that I believe was praised by 
Human Rights Watch as it was applied in Abu Dhabi, the point of 
this is to ensure that workers on projects associated with NYU 
Shanghai have their labor rights respected and enforced. And 
you are pointing at number five. I believe it is 13 paragraphs. 
Is that right?
    Mr. Smith. Fourteen.
    Mr. Lehman. Fourteen paragraphs of rights in different 
areas. And the point is to say that in each of these areas, 
including worker safety, including guarantees that they will be 
paid, that their rights will be respected and enforced. Because 
sometimes, as you know, in many countries, including in China, 
there will be times when there are rights on paper that are not 
respected.
    Mr. Smith. But it is precisely at the workplace where the 
one-child-per-couple policy is implemented. So whether these be 
contractors or whatever, that is the point of contact where 
they have their greatest means of compliance, and that is where 
the snitches come in, fellow workers, who are rewarded or 
penalized if they do not bring to the attention of the family 
planning cadres that so and so is pregnant without being given 
the ability--without getting the authorization from the 
government.
    Mr. Lehman. Yes, Chairman Smith, I understand that. We will 
get back to you.
    Mr. Smith. So that would be both from the worker's point of 
view, as well as from the student's.
    Mr. Lehman. Exactly.
    Mr. Smith. Mr. Sherman.
    Mr. Sherman. Thank you.
    I would point out that while fining a woman for having a 
child seems a deprivation of human rights, Mr. Lehman points 
out that in other cases China provides 4 months of paid leave. 
A woman seeking 4 months off in the United States faces a fine 
equal to 4 months pay.
    Mr. Smith. Not everywhere. Not in New Jersey.
    Mr. Sherman. Well, everywhere in the United States there is 
no paid maternity--there is paid maternity leave in New Jersey?
    Mr. Smith. State government.
    Mr. Sherman. Oh, if you are an employee of the State 
government. Okay. Well, the vast majority of my constituents 
are not employees of any government, and it is good to see that 
the State is generous to its own employees. It would be nice to 
see how we can work that out for all employees.
    Let's see. Mr. Lehman, if one of your students is sitting 
in your library in Shanghai and they Google ``Tiananmen Square 
1989,'' and they do it on Google.com, what do they see? Do they 
see what I see or do they see what everybody else in Shanghai 
sees?
    Mr. Lehman. They see what you see.
    Mr. Sherman. So you get around the Great Firewall of China?
    Mr. Lehman. We are part of NYU's global network.
    Mr. Sherman. Gotcha.
    Mr. Lehman. And so in order for us----
    Mr. Sherman. Let me move on.
    Ms. Lawrence, first, thank you so much for all the guidance 
you provide to my staff and myself. Second, how much money is 
China throwing into these Confucian Institutes here in the 
United States or otherwise in order to give free services, 
professorial and otherwise, or cash to U.S. universities? Is 
this a big thing?
    Ms. Lawrence. I am afraid I don't have a number. I could--
--
    Mr. Sherman. I mean, are there a dozen or several dozen 
professors fully paid by the Chinese Government here in the 
United States?
    Ms. Lawrence. My understanding is that usually the Hanban, 
which is the organization in China that manages Confucius 
Institutes, provides a certain amount of money per Confucius 
Institute to get it set up. And it can be up to, I think, about 
$500,000, somewhere between $100,000 and $500,000, but I think 
it depends on the university. Robert may have more information 
there actually.
    Mr. Daly. Well, in addition to those arrangements, you are 
right, the Hanban has also started to propose endowed 
professorships to universities. The test case on this a few 
years ago----
    Mr. Sherman. So this would be the chair in----
    Mr. Daly. Chair, faculty member.
    Mr. Sherman. Okay. These faculty would teach the nine-dash 
line is----
    Mr. Daly. No. The test case was in Stanford a few years 
ago. In fact, I testified in 2011 before Congressman 
Rohrabacher's committee on this. And there was a fight at 
Stanford, there was concern because the faculty got a say about 
the constraints that the Chinese side would put either on the 
specialty of the faculty member or teaching. Stanford won that 
argument, and they took the money for the chair sans 
conditions, and it was all designed by Stanford University, and 
the money still came through----
    Mr. Sherman. I know at least one major university has 
turned down the money or pulled out presumably because they 
didn't get that.
    Mr. Lehman, you suggested that the Federal Government pay 
money to U.S. students at your university and elsewhere. All I 
can say is nice try. This would be basically a lottery ticket 
in the sense that there are 1 million American students that 
would want it, and five or ten would get it, and I am not going 
to cut cancer research in order to send you students. You are 
going to have to get those on your own.
    Let's see. Ms. Lawrence, Chinese students studying here in 
the United States, are they studying STEM, science and 
technology, engineering, math, or are they studying business? 
Kind of give me a vague breakdown. Humanities versus business, 
business law versus----
    Ms. Lawrence. Traditionally, the Chinese students coming to 
the United States in the early wave of students came to do 
graduate study and often were studying STEM subjects, in part 
because they didn't require such strong language abilities. If 
you were studying mathematics you didn't have to have 
incredibly fluent----
    Mr. Sherman. What do we see now?
    Ms. Lawrence. But now we are moving into an era where there 
are many Chinese students now starting to come over actually at 
the undergraduate level too. I was recently in Beijing and 
hearing that one of the best high schools in Beijing----
    Mr. Sherman. But you may have heard the exchange with Mr. 
Rohrabacher. If they are here learning the technology that will 
strengthen China, that is one thing. If they are here learning 
American values, that is something else. Are they here reading 
the works of Chairman Smith on human rights in a humanities 
course or are they here learning how to beat us at technology?
    Ms. Lawrence. I think that now the new wave of students who 
are coming not just at the graduate level but now also at the 
undergraduate level, I think they are starting to study rather 
more diverse subjects than the first wave.
    Mr. Sherman. What about the institutes that we are 
basically focusing on in these hearings, the Chinese campuses 
of U.S. universities, are they teaching STEM, or are they 
teaching business and law, or are they teaching humanities, or 
mostly one, mostly the other?
    Ms. Lawrence. There is a wide range of models for these 
U.S. universities that are operating in China. So NYU Shanghai 
is one model, and it is a joint campus. It is a joint venture 
between NYU and East China Normal University, with East China 
Normal University as the majority partner, and it is providing 
a liberal arts education.
    The number of joint campuses is very small. There are three 
U.S. universities that have been given this independent legal 
person status, which Vice Chancellor Lehman could explain more 
what the implications of that status are.
    There are only 13 U.S.-partnered institutions that China 
recognizes and approves as collaborative education 
institutions, but there are more than 100 other U.S. 
universities that are involved in offering degree programs on 
Chinese campuses.
    And so it kind of varies depending on the model, but I 
would say that the bulk of the degrees that are being offered 
by U.S. institutions in China, a lot of them are business, 
engineering degrees, some English degrees. There are a few 
unusual degrees. There is one U.S. university that is offering 
a music degree. There is another U.S. university that is 
offering a dance degree. But for the most part it is more STEM, 
business.
    Mr. Sherman. Chancellor Lehman, if I got you right, you 
testified that you are not aware of any of your students being 
pregnant. That is the first time a chancellor of a non-all-male 
university has ever said that here in Congress. Obviously then 
you are not focused on that, but the chancellor of UCLA has 
never said that.
    I will ask Ms. Lawrence first, but perhaps others as well. 
What does the Chinese Government do to insulate the students 
that it sends to the United States from the wrongful influences 
of those who would want to break the pots of the Chinese 
Communist Party? What do they do to prevent the students they 
send here from bringing back American political values?
    Ms. Lawrence. The Chinese Government does allow, does 
encourage a lot of the students now to come and study in the 
United States. There are Chinese student groups on a lot of 
campuses which have very close relationships with the Chinese 
Embassy, the Chinese consulates.
    Mr. Sherman. Are they spying on the Chinese students in 
what they are saying and doing?
    Ms. Lawrence. I wouldn't know whether they are spying on 
them, but I think they do coordinate with the Embassy. You see 
when major Chinese leaders are visiting, often there will be 
groups organized by these Chinese student groups to take 
Chinese students studying in the U.S. to come and join welcome 
parades and that sort of thing for visiting officials.
    Mr. Sherman. Let me ask, Ms. Cao, if someone was interested 
in commemorating the events of Tiananmen Square in 1989, would 
it be wise for them not to cause the Chinese students 
organization described by Ms. Lawrence, take steps so that they 
wouldn't be aware of that effort? Or would you walk into one of 
these Chinese student groups with a big ``remember Tiananmen'' 
badge on and feel just comfortable?
    Ms. Cao. You will feel uncomfortable. There is evidence of 
that, there is incidences of that. And the associations of 
Chinese students and scholars on larger American campuses, like 
Columbia University, MIT, there is strong evidence supporting, 
showing that there is very close cooperation and influence from 
the Chinese consulates and the Embassies.
    And in the UK, in Cambridge, there was an example--well, I 
can only quote examples that are in the paper, that is how we 
get to know. But I have no reason to assume that was an 
isolated incident.
    Now, a couple years ago in Cambridge University, the 
university authorities actually cancelled the Chinese student 
association because of the Chinese Embassy's influence on who 
will become the president of that association, because these 
associations are called on, for example, when Chinese leaders 
are visiting, they are called on to wave the flags, and they 
are paid the meal and money to do that. And when the Tibetans 
protest, these students are organized, these associations at 
the behest of the Embassy or consulate are going to do the 
counter protest, things like that. There are a lot of incidents 
like that.
    Mr. Sherman. Ms. Lawrence, if you are an agent of a foreign 
government or paid by a foreign government, aren't you supposed 
to register? I realize that we heard a description of what went 
on in England, but assuming that there are Chinese student 
organizations being subsidized by and the officers being 
selected by the Chinese Embassy, should those students be 
registering as agents of the PRC?
    Ms. Lawrence. I have to refer you to another branch of CRS 
which handles U.S. domestic law. I focus on China, so I am 
afraid I am not familiar with----
    Mr. Sherman. Okay. Get those folks to give us an answer.
    Ms. Lawrence. Sure.
    [The information referred to follows:]
Written Response Received from Ms. Susan V. Lawrence to Question Asked 
            During the Hearing by the Honorable Brad Sherman
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Sherman. I don't know who else----yes, Ms. Cao, you 
have a----
    Ms. Cao. Just a few weeks ago, very recently, the Chinese 
student association at Columbia University was shut down by the 
university and the reason they gave is that, well, they broke 
some rules. And I recently, just last week, I talked to a 
Reuters reporter, I urged him to dig deeper, because I believe 
it is likely, very likely there is something else, not just 
leaving food after their events or something like that.
    Mr. Sherman. That is so unusual at an American university. 
If you were to shut down the Albanian students organization at 
UCLA, the whole campus would erupt.
    Mr. Daly, what can U.S. campuses do to ensure that Chinese 
students are not only protected from this intimidation or 
observation, but are actually encouraged to break the pots of 
the Chinese Communist Party?
    Mr. Daly. They can do very little directly. There have 
always been organized----
    Mr. Sherman. Well, let's back up a little bit. They send 
the kids here to study STEM. Can we require at all our 
universities, if you are here to study STEM, you have to take 
one or two courses where you may read the writing----
    Mr. Daly. American universities all have distribution 
requirements, they have general education requirements. What 
American campuses can do is be American campuses. Where is our 
confidence? Yes, there are attempts by the consulates and the 
Embassies to infiltrate Communist Party cells----
    Mr. Sherman. So you don't have U.S. universities saying: 
Hey, we really want the Chinese money. We will let students 
come here. We will give them some sort of certificate. They can 
take nothing but math and science.
    Mr. Daly. American universities provide the opportunity, 
the environment, and all of the stimuli that are the best 
antidote to everything the Chinese Communist Party is 
attempting to do.
    Mr. Sherman. Unless they are willing to provide programs 
designed with the interests of the PRC in mind. Are there 
universities that, regardless of the breadth requirements they 
have for their U.S. students, either have some certificate 
program or degree program designed to teach STEM to Chinese 
students without exposing them? I see Dr. Martin is saying no.
    I realize no for your own campus. Does that apply to every 
campus you are aware of? Is there any university in this 
country that is saying: Come here, bring your Chinese dollars, 
study math and science and technology, and you can leave, and 
you don't have to take a course in politics, humanities, 
anything like that?
    Ms. Martin. Sir, I don't have the vast knowledge to be able 
to answer.
    Mr. Sherman. But have you heard of any such example?
    Ms. Martin. However, every single institution of higher 
education is governed and accredited by a regional accrediting 
body to whom we have to answer. And as such, we provide this 
accrediting body a list of all of our programs and they approve 
it. Within those programs, as was stated earlier, there are the 
general education programs that include your English, your 
sciences, your mathematics, your humanities, your social 
sciences.
    Mr. Sherman. So there is no certificate somebody can earn 
without those breadth requirements?
    Ms. Martin. A certificate is a specialized series of 
courses in a specific area. And so the answer would be, 
certainly it could be designed, but I am not aware. It wouldn't 
be a degree.
    Mr. Sherman. Let me just make a comment. I am concerned 
with Chinese money influencing American thought. I think the 
number one problem is the corporate sector where hundreds of 
billions of dollars are made and lobbyists for the benefit of 
China descend upon this place and descend upon the media, 
particularly the business cable channels, with an amount of 
power that far exceeds our influence in China.
    I know some of you said we have got the soft power way 
beyond what they do. That is true if you just ignore money, 
lobbying, and the effect of money on cable television and think 
tanks. If you just ignore money and focus only on the academia, 
then you would say that we have got the soft power and they 
don't.
    And then finally, as I mentioned, when China controls a big 
chunk of the movie theaters in the United States, they control 
or influence what studios will choose to make, and those of you 
who are looking for a second Gere movie on Tibet will have to 
look at just some movie that is, like, made for cable. It will 
not be a theatrical run.
    With that, Mr. Chairman, I thank you for these hearings. I 
know that you have some additional questions.
    Mr. Smith. Thank you, Mr. Sherman.
    Ms. Martin. Mr. Chairman, if I could just say something. 
While I am not able to speak on behalf of every single 
institution of higher education as to what course of study they 
may or may not have or what certificate they may or may not 
have, I believe that I can speak on behalf of every institution 
in this country to the fact that the academic integrity of our 
programs highlight and dictate who we are as an academic 
institution. And speaking for them, and certainly on behalf of 
Fort Hays State University, no amount of money will ever be 
able to be given to me to sacrifice the name or the credibility 
of my institution or those of higher education in the United 
States.
    Thank you.
    Mr. Smith. Just a couple of final questions, and again I 
thank you for the generosity of your time as well this 
afternoon.
    Mr. Lehman, I am encouraged when you say the seven taboos, 
there is not a concern. I think I am concerned that 
surveillance can be very, very ubiquitous. It could be 
everywhere.
    When Frank Wolf and I made our way over to the PRC, to 
Beijing, immediately prior to the Olympics, we brought with us 
a prisoners list that the Congressional-Executive Commission on 
China, which I chair, had put together, a very extensive list, 
as you know, that really goes to great depth. It is one of the 
best prisoners lists I have ever seen. It is updated 
constantly, combed to make sure that it is accurate.
    And while Congressman Wolf and I were in the Embassy van, 
it is the only time we talked about this, we talked about, 
kiddingly, going to Tiananmen Square, because we were on our 
way to another meeting, and unfurling a banner that called for 
human rights. Twenty minutes to twenty-five minutes later the 
U.S. Embassy got a phone call saying that if Smith and Wolf 
unfurl the human rights banner at Tiananmen Square--which was a 
fiction, we were talking to each other, and we did make one 
phone call in which we mentioned it as well--we would be 
immediately escorted to the airport or worse, and the Embassy 
was very concerned. This was right before a big showcase 
Olympics.
    And the ability to embed surveillance equipment and the 
like in the classroom when the Embassy van may have been 
compromised, I don't know that, but my own and my 
subcommittee's computers have been compromised at least once 
and the PRC hacked into them. So I am concerned about when 
someone does go beyond or says Tiananmen Square.
    I mean, Chi Haotian, as we all remember, when he came into 
town during President Clinton's tenure in office, was given a 
19-gun salute. He was the butcher of Beijing, as you know, was 
the operational commander, and then at that point when he was 
in town was the Defense Minister, he said nobody died at 
Tiananmen Square. We put together a hearing 2 days later. We 
had people who were there on the square, including 
correspondents, and someone from the People's Daily, who said 
people died and they died in large numbers.
    I mean, the ability of this government in Beijing to do 
unbelievably nefarious things and to lie in broad daylight, I 
mean, here he was in Washington at the Army War College saying 
nobody died at Tiananmen Square. I thought Mr. Clinton did a 
terrible thing in honoring him. He should have been on his way 
to The Hague for crimes against humanity. But that said.
    So I am concerned, and I completely accept your sincerity 
and the fact that as a very learned man you believe this is the 
case, and I absolutely hope it is true.
    But I do want to ask you a question. The whole episode with 
Chen Guangcheng, and Jerry Cohen was one of my witnesses 
earlier on, so it is not like I have any animus toward NYU, and 
I want that clear and unmistakable. And we held hearings, like 
I said, I had worked on his case for about 5 years when he 
first was put behind bars. And the way that I was treated, you 
know, who cares. The way Chen was treated was what really 
concerned me. But even as he was flying into Newark 
International Airport, huge efforts, including Under Secretary 
Kennedy, who I was on the phone with, ensured that I did not 
meet him at the airport. He was ushered, when he came in, we 
were at the gate, and I know because the man who ran the Port 
of Authority used to be my intern and he couldn't believe the 
great lengths and hoops being jumped through to ensure that my 
wife and I were not there at the gate to greet him. I thought 
it was a bit bizarre, frankly. But that said.
    We made our way over to the NYU. I was pushed to the side, 
and I mean literally brought to the side by someone working for 
NYU, and if it wasn't for Chai Ling yelling, as he got out of 
the van, ``Chris Smith is here,'' he perked up and walked over 
to the direction of what she said, and I shook his hand, that 
was the end of it, and I was shunted to the side again.
    The meetings that we had with him were always, particularly 
in the early days, and we tried hard to have meetings, they 
were hostile. And I was bewildered by it, and I mean 
bewildered. Then I heard from Mr. Chen how he repeatedly was 
admonished, maybe threatened, but admonished may be a kinder 
word, about coming to Washington, testifying before our 
subcommittee. He never got the answer from the administration 
or from anyone else about the agreement, which it turns out 
probably was just oral, it was never written, with the Chinese 
Government about looking into his case. So more subterfuge 
there.
    And then when he came down, as I said in my opening before, 
to an event that we suggested with former Speaker Pelosi and 
Speaker Boehner, which I think was a great success, that was 
frowned upon. And then he was told the day after he testified 
here, and it took almost a year to get him here because of 
these obstacles, that he was gone.
    Whether it be Lech Walesa or Nelson Mandela or any other 
world-class human rights leader, not to treat Chen with that 
kind of--the respect, I mean, if it was my university, you are 
here for as long as you want to be. And he was even told: See 
what your right-wing friends like Smith can do. And thankfully 
I was able to with phone calls within an hour of his ouster, or 
information about his ouster, to set up for him to become part 
of a three-part sponsorship, including Catholic University of 
America, the Lantos Foundation, and the Rutherford Institute.
    So it has been a very strange episode. I don't have the 
answers for it. I read his book. He had concerns about how he 
was treated, especially by the U.S. Government.
    So a very specific question, and it is done in the hopes of 
just clearing the air. Did the PRC officials in any way 
pressure, advise, or convey any message to NYU personnel 
concerning Chen Guangcheng's case? And if so, how were those 
messages conveyed? And was Chen's situation perceived by NYU as 
a threat to NYU's Chinese programs, including at Shanghai 
campus?
    I know that he was admonished many times not to go into 
certain directions. I mean, he was incarcerated and tortured, 
as was his wife, because he brought up the one-child-per-couple 
policy and in Linyi tried to defend women who were being 
horribly abused. And to suggest he ought to talk about 
corruption and rule of law generically and esoterically without 
getting into details was, again, mind-boggling. You wouldn't 
say to Nelson Mandela: By the way, don't bring up apartheid. 
You just wouldn't do it. That is why he was singled out for 
punishment.
    So if you could answer that question, I would appreciate 
it.
    Mr. Lehman. So the simple answer to the question is no. The 
Chinese Government did not attempt to influence NYU's dealings 
with Mr. Chen. I should say I was in China at the time. I was 
not in New York. No one spoke to me ever.
    Mr. Smith. But that is just you. I am talking about NYU 
personnel.
    Mr. Lehman. NYU personnel in general, I mean, I will say it 
should be remembered that when Mr. Chen sought refuge in the 
Embassy in Beijing and Harold Koh was there and was working to 
trying find a solution so that he could leave China, to my 
knowledge NYU was the only university that offered a fellowship 
to Mr. Chen to enable him to leave. Other universities were 
approached and they refused.
    And this was at the time that NYU Shanghai was being 
negotiated. This was before there was any agreement to create 
NYU Shanghai. And so NYU was not worried about the possibility 
that they might lose NYU Shanghai. This was not a motivating 
factor at all.
    Mr. Smith. With total respect, at that point I agree 
completely. It was as he came here and as his time in the 
United States began to unfold that the pressure seems to have 
been applied.
    Mr. Lehman. I don't believe there was any pressure applied. 
I have spoken with people who worked with--I have never meet 
Mr. Chen, but I have spoken with people who worked with him. I 
have spoken with people who worked closely with him while he 
was here. None of them ever felt any pressure whatsoever. And I 
believe, Chairman Smith, if NYU Shanghai was being used as a 
lever, I would have been told.
    Mr. Smith. Would anybody else like to say anything before 
we conclude?
    Yes.
    Ms. Cao. I just want to quickly make it, because this 
matters a lot, the Internet freedom on these campuses. My 
research on the Chinese sources, my impression is that the 
situation varies from campus to campus. On the campus like NYU 
Shanghai where you have half of the students are American 
students, it may very well be the case that they have free 
access to Internet.
    But I just read an article on Hong Kong's Ming Bao that 
reported that on the Shenzhen campus of the Chinese University 
of Hong Kong, the Hong Kong university invested the capability 
of using their own VPN, which is completely free, like on their 
Hong Kong campus, but the university, the students, in the end 
were not allowed to use the Hong Kong university's VPN. Instead 
they have a domestic VPN that has the Great Firewall of China.
    So my guess is that from these joint programs their 
Internet freedom probably varies. If the student body is 
entirely Chinese the likelihood is that they won't have 
complete Internet freedom.
    Mr. Smith. Thank you. Again, I want to thank you for your 
leadership, your generosity. This has been a long hearing.
    And without objection, I would ask that Dr. Dawood Farahi, 
the president of Kean University's testimony be included in the 
record. We did invite Dr. Farahi to be here. We will invite him 
again for a future hearing. But without objection, his 
statement will be included in the record.
    This hearing is adjourned, and thank you very much.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

        
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
